No. 19-___________

In The

Supreme Court
of the United States
___________________
PAUL D. VOORHEES, Major, USAF,
Petitioner,
v.
UNITED STATES OF AMERICA ,
Respondent.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Armed Forces
_________________
PETITION FOR A WRIT OF CERTIORARI
_________________
DONALD G. REHKOPF , JR .
Counsel of Record
Rehkopf Law Office
31 E. Main Street, 2nd Floor
Rochester, NY 14614
(585) 434-0232
usmilitarylaw@gmail.com

BENJAMIN H. DE YOUNG , Major, USAF
Air Force Appellate Defense Division
1500 W. Perimeter Rd., Suite 1100
JB Andrews NAF, MD 20762-6604
(240) 612-4770
benjamin.h.deyoung.mil@mail.mil

Counsel for Petitioner

i
QUESTION PRESENTED
In Elonis v. United States, 135 S.Ct. 2001 (2015),
this Court reaffirmed a long-standing principle under
both the Fifth Amendment’s Due Process Clause and
the Sixth Amendment’s Informed Clause, that criminal
statutes must contain a mens rea element–with the
exception of strict liability offenses. Furthermore, as
Elonis explains, a “defendant must be ‘blameworthy in
mind’ before he can be found guilty” of any offence in
order to differentiate between lawful and unlawful conduct. Id. at 2009. Where a criminal statute is silent
about scienter, a court must “read into” a criminal
charge a mens rea element in its jury instructions as
Elonis and its antecedents held, and as refined in
Rehaif v. United States, 139 S.Ct. 2191 (2019).
Petitioner was convicted of five counts of violating
10 U.S.C. § 933, Article 133, Uniform Code of Military
Justice, for “conduct unbecoming an officer.”
The Question Presented is:
Does this mens rea or scienter principle
apply to criminal prosecutions under the
Uniform Code of Military Justice, where the
underlying statute at issue, 10 U.S.C. § 933,
contains no mens rea element and the U.S.
Court of Appeals for the Armed Forces held
below that only a general intent was required
using an objective, versus subjective
standard, i.e., negligence, and thus, no mens
rea element need be instructed to the jury,
even where the “conduct” alleged to be
criminal, is facially non-criminal?

ii
PARTIES TO THE PROCEEDING and
RULE 29.6 STATEMENT

1. Petitioner, Defendant-Appellant below, is Paul
D. Voorhees, Major, USAF. Respondent is the
United States.
2. No party is a corporation.

iii
RULE 14.1(b)(iii) STATEMENT
1. This case arises from a trial by a General CourtMartial, United States v. Voorhees, sitting with
officer Members, convened by Headquarters, 12th
Air Force, Davis-Monthan Air Force Base, Arizona.
Petitioner was convicted of six offenses under the
Uniform Code of Military Justice [UCMJ], 10 U.S.C.
§ 801 et seq., and acquitted of one. He was
sentenced on 9 January 2015, to a Dismissal, three
years confinement, and forfeiture of all pay and
allowances.
2. Further proceedings in the United States Air Force
Court of Criminal Appeals [AFCCA] and the United
States Court of Appeals for the Armed Forces
[CAAF], were as follows:
a. United States v. Voorhees, No. ACM 38836,
(AFCCA, Nov. 23, 2016) (unpub. op.). available at
2016 WL 11410622 [Pet.App. 46a-79a]; which
reversed and dismissed with prejudice Petitioner’s
conviction for sexual assault under 10 U.S.C. § 920,
as being factually insufficient, and remanding the
case back to a new court-martial for resentencing as
to the remaining offenses, all under 10 U.S.C. §
933;
b. A second General Court-Martial convened by the
same Headquarters, United States v. Voorhees
(rehearing) with a Military Judge sitting alone
without Members at Petitioner’s request, on 5 April
2017, resentenced Petitioner to a Dismissal and a
Reprimand. The General Court-Martial Convening
Authority approved only the Dismissal portion of
the sentence adjudged.

iv
c. United States v. Voorhees, No. ACM 38836 (reh)
(AFCCA July 20, 2018) (unpub. op.), available at:
2018 WL 3629893 [Pet.App. 28a-45a], which
affirmed the approved sentence.
d. United States v. Voorhees, Dkt. # No. 18-0372,
79 M.J. 5 (CAAF,June 27, 2019); rehearing denied,
79 M.J. 218 (CAAF, August 8, 2019) [Pet.App. 1a27a; 90a], is the case below, which affirmed
Petitioner’s remaining § 933 convictions and
approved sentence.
3. There are no other proceedings in state, military, or
federal trial or appellate courts, or in this Court
directly related to this case.

v
TABLE OF CONTENTS
Page(s)

QUESTION PRESENTED. . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
RELATED PROCEEDINGS. . . . . . . . . . . . . . . . . iii-iv
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . vii-x
PETITION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 4
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CONSTITUTIONAL and STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . 5-6
STATEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION. . . . 12
I. CAAF’s DECISION CONTRAVENES THE
CONSTITUTION. . . . . . . . . . . . . . . . . . . . . . . . . 12
II. CAAF’s DECISION MISCONSTRUES PLAIN,
SIMPLE, AND LONG-STANDING
PRECEDENTS FROM THIS COURT. . . . . . . . 14
A. The Mens Rea Jurisprudence.. . . . . . . . . . . . 14
B. Parker v. Levy. . . . . . . . . . . . . . . . . . . . . . . . . 21
C. CAAF Ignored Elonis and Rehaif. . . . . . . . . 23

vi
III. THE IMPORTANCE OF THIS CASE. . . . . . . 26
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

APPENDICES
Appendix A, CAAF Opinion, 79 M.J. 5
(CAAF 2019).. . . . . . . . . . . . . . . . . . . . . . . . 1a-27a
Appendix B, AFCCA Opinion, unreported
(July 20, 2018). . . . . . . . . . . . . . . . . . . . . . 28a-45a
Appendix C, AFCCA Opinion, unreported
(November 18, 2016). . . . . . . . . . . . . . . . . 46a-79a
Appendix D, CAAF Reconsideration Denial,
79 M.J. 218 (CAAF 2019). . . . . . . . . . . . . . . . . 80a
Appendix E, Glossary. . . . . . . . . . . . . . . . . . . . . . . 81a

vii
TABLE OF AUTHORITIES
Page(s)

CASES
Burns v. Wilson,
346 U.S. 137 (1953). . . . . . . . . . . . . . . . . . . . 22-23
Carter v. United States,
530 U.S. 255 (2000). . . . . . . . . . . . . . . . . . . . . 4, 17
Elonis v. United States,
135 S.Ct. 2001 (2015).. . . . . . . . . . . . . 4, 11, 23-25
Lawrence v. Texas,
539 U.S. 558 (2003). . . . . . . . . . . . . . . . . . . . . 3, 15
Liparota v. United States,
471 U.S. 419 (1985). . . . . . . . . . . . . . . . . . . . . . . 18
Loving v. United States,
517 U.S. 748 (1996). . . . . . . . . . . . . . . . . . . . . . . 23
Morissette v. United States,
342 U.S. 246 (1952). . . . . . . . . . . . . . . . . . . passim
Parker v. Levy,
417 U.S. 783 (1974). . . . . . . . . . . . . . . . . 11, 21-23
Rehaif v. United States,
139 S.Ct. 2191 (2019).. . . . . . . . . . . . . . . . . passim
Sessions v. Dimaya,
138 S.Ct. 1204 (2018).. . . . . . . . . . . . . . . . . . . . . 19
Staples v. United States,
511 U.S. 600 (1994). . . . . . . . . . . . . . . . . . . . 18, 25
United States v. Caldwell,

viii
75 M.J. 276 (CAAF), cert. denied,
137 S.Ct. 248 (2016).. . . . . . . . . . . . . . . . . . . . . . 10
United States v. Davis,
139 S.Ct. 2319 (2019).. . . . . . . . . . . . . 4, 12-13, 19
United States v. Fosler,
70 M.J. 225 (CAAF 2011). . . . . . . . . . . . . . . . . . 18
United States v. McDonald,
78 M.J. 376 (CAAF), recon. denied
79 M.J. 94 (CAAF 2019),cert. pending. . 19, 26-27
United States v. Shober,
26 M.J. 501 (A.F.C.M.R.), aff’d, 23 M.J. 249
(CMA 1986). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Voorhees,
79 M.J. 5, reh. denied, 79 M.J. 218
(CAAF 2019).. . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. X-Citement Video, Inc.,
513 U.S. 64 (1994). . . . . . . . . . . . . . . . . . . . . . . . 17
CONSTITUTIONAL PROVISIONS
Article I, § 8, U.S. Const.. . . . . . . . . . . . . . . . . . . 2, 12
Article II, § 2, cl.1, U.S. Const.. . . . . . . . . . . . . . . . . 12
Fifth Amendment, U.S. Const.. . . . . . . . . . 1, 5, 13-14
Sixth Amendment, U.S. Const... . . . . . . . . 1, 5, 13-14

ix
STATUTES
10 U.S.C. § 825a. . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
10 U.S. Code § 836(a). . . . . . . . . . . . . . . 5, 16, 22, 26
10 U.S.C. § 867a. . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
10 U.S.C. § 893 (2012).. . . . . . . . . . . . . . . . . . . . . . . 18
10 U.S.C. § 920. . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 26
10 U.S.C. § 933. . . . . . . . . . . . . . . . . . . . . . . . . passim
10 U.S.C. § 934. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
18 U.S.C. § 922(g)(6). . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1259(3). . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Nat’l Defense Authorization Act for FY 2017,
Pub. L. No. 114-328, 130 Stat. 2000 (2016). . . . 15

OTHER AUTHORITIES
Black’s Law Dictionary, 9th ed. (2009).. . . . . . . . . . . . 2
Manual for Courts-Martial (1951). . . . . . . . . . . 16, 22
Manual for Courts-Martial (1984). . . . . . . . . . . . . . 23
Manual for Courts-Martial (2012). . . . . . . . . . . 17-18

x
Manual for Courts-Martial (2019). . . . . . . . . . . . . . 17
Manual for Courts-Martial (Army, 1949).. . . . . . . . 21
Sen. Sam Irvin, Jr., The Military Justice Act
of 1968, 45 Mil. L. Rev. 77 (1969). . . . . . . . . . . . 23

1
No. 19-____
In The

Supreme Court of the United States
___________________
PAUL D. VOORHEES, Major, USAF,
Petitioner,
v.
UNITED STATES OF AMERICA ,
Respondent.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Armed Forces
_________________
PETITION FOR A WRIT OF CERTIORARI
_________________
Major Paul D. Voorhees, USAF, respectfully
petitions for a writ of certiorari to review the judgment
of the U.S. Court of Appeals for the Armed Forces.
INTRODUCTION
The Fifth Amendment’s Due Process Clause (fair
notice) and the Sixth Amendment’s Informed Clause,
require that criminal statutes contain a mens rea
element–with the exception of “public welfare”
offenses. Where a statute is silent about scienter, a
court must “read into” a criminal charge a mens rea

2
element in its instructions to the jury as Elonis v.
United States, 135 S.Ct. 2001 (2015) and its
antecedents hold, and as refined in Rehaif v. United
States, 139 S.Ct. 2191 (2019).
Unlike the Fifth Amendment's Grand Jury
exceptions for “cases arising in the land or naval
forces,” the Constitution nowhere else exempts
Congress (or the Commander-in-Chief) from complying
with the fair notice–mens rea–provisions of the Fifth
and Sixth Amendments. Since at least 1950, every
Congress and every Commander-in-Chief has accepted
this premise.
Petitioner makes no claim that Congress cannot
proscribe misconduct by our military's officer corps
under the Make Rules Clause of Article I, § 8, U.S.
Const., Petitioner only submits that where Congress
does proscribe such misconduct–as in 10 U.S.C. §
933–it must do so in a constitutionally acceptable
manner, i.e., that the conduct or speech allegedly
“unbecoming,” be done knowingly or with a subjective
mens rea.1 In its decision below, the CAAF
fundamentally distorted–if not eliminated–the basic
principles of the constitutional requirement of a mens
rea element for military defendants, absent a specific
intent element in a particular punitive Article of the
UCMJ. CAAF's decision will encompass all UCMJ
offenses which must separate unlawful from innocent
conduct as 10 U.S.C. § 933 does.

1

Black’s Law Dictionary, 9 th ed., 1075 (2009), defines mens
rea as: “The state of mind that the prosecution, to secure a
conviction, must prove that a defendant had when committing a
crime.”

3
The CAAF affirmed Major Voorhees’ convictions of
five Specifications (counts) of violating § 933, which
does not have a mens rea for “conduct unbecoming an
officer and a gentleman,”2 and affirmed his sentence to
a Dismissal (under dishonorable conditions). A
Dismissal for an officer carries not only a life-long
stigma, but also deprives the officer of any military
pension benefits they may be entitled to, and virtually
all VA benefits the veteran may be entitled to. In
Petitioner’s case this is true even after completing six
combat deployments.3 As relevant here, CAAF granted
review on this issue:
“Whether the military judge erred when she
failed to instruct the panel on a mens rea for
Article 133, UCMJ [10 U.S.C. § 933].”
Pet.App. 3a.
CAAF’s decision below ignored this Court’s
precedents since at least Morissette v. United States,
342 U.S. 246, 251 (1952)(requiring the “concurrence of
an evil-meaning mind with an evil-doing hand. . . .”),

2

Four Specifications dealt with language that he directed
to female Air Force members, e.g., “I would like to take you back
to my room,” and one of actual “conduct,” viz., a consensual back
rub, given to an adult female, enlisted Air Force member. Cf.,
Lawrence v. Texas, 539 U.S. 558, 564 (2003) [“The petitioners were
adults at the tim e of the alleged offense. Their conduct was in
private and consensual.”]
3

There is another lifetime, direct consequence. Under 18
U .S.C. § 922(g)(6), a person “who has been discharged from the
Armed Forces under dishonorable conditions,” is prohibited from
possessing firearms or ammunition. Compare, Rehaif, supra.

4
continuing through Rehaif.4 CAAF’s decision
disregards not only the teaching of Morissette but,
contrary to Elonis, framed its holding as follows:
In the instant case, a general intent mens rea
would require only that Appellant intended
to commit the conduct alleged in each
specification—i.e., making inappropriate
comments and massaging his subordinate’s
back. It was up to the panel [jury] to
determine whether Appellant’s acts
constituted conduct unbecoming.
Pet.App. 24a. In other words, CAAF is interpreting
Congressional silence as to a military defendant's state
of mind as only requiring the prosecution to prove
negligence, namely that a reasonable person (or juror)
would believe that Petitioner's speech and conduct
were "unbecoming an officer." That approach flies in
the face of Elonis, and denotes an objective intent, with
no mens rea requirement.5
OPINIONS BELOW
The CAAF opinion (Pet.App. 1a-27a) is reported at
79 M.J. 5 (CAAF 2019). CAAF denied Reconsideration
(Pet.App. 80a) without opinion, 79 M.J. 218 (CAAF

4

Carter v. United States, 530 U.S. 255 (2000), is not to the
contrary, as the statute at issue–bank robbery–required that the
actus reus be done “by force and violence,” hardly innocent
conduct.
5

It also ignores the separation of powers issue articulated
in United States v. Davis, 139 S.Ct. 2319, 2333 (2019)[decided days
before Voorhees], that it is a Congressional function to define
crimes.

5
2019).The AFCCA opinion (Pet.App. 28a-45a), after
resentencing is unreported, but available at 2018 WL
3629893 (AFCCA 2018). The initial AFCCA opinion
(Pet.App. 46a-78a), is unreported, but available at
2016 WL 11410622 (AFCCA 2016).
JURISDICTION
CAAF’s decision below was rendered on June 27,
2019. Petitioner timely sought reconsideration, which
was denied on August 8, 2019. The Chief Justice
granted Petitioner’s Application to extend the time to
file his Petition for Certiorari to December 23, 2019.
This Court’s jurisdiction is invoked per 28 U.S.C. §
1259(3).
CONSTITUTIONAL and STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment of the U.S. Constitution
provides as relevant:
No person shall . . . be deprived of life,
liberty, or property, without due process of
law . . . .
The Sixth Amendment of the U.S. Constitution
provides as relevant:
In all criminal prosecutions, the accused
shall enjoy the right . . . to be informed of the
nature and cause of the accusation . . . .
Title 10, U.S. Code § 836(a), provides in relevant
part:
Pretrial, trial, and post-trial procedures,
including modes of proof, for cases arising
under this chapter triable in courts-martial

6
. . . may be prescribed by the President by
regulations which shall, so far as he
considers practicable, apply the principles of
law and the rules of evidence generally
recognized in the trial of criminal cases in the
United States district courts. . . . [Emphasis
added]
Title 10, U.S. Code § 933, provides in relevant part:
Any commissioned officer . . . who is
convicted of conduct unbecoming an officer
and a gentleman shall be punished as a
court-martial may direct.
STATEMENT
1. Until his conviction, Major Voorhees was an Air
Force [AF] pilot. He flew a modified version of the C130 “Hercules” tactical cargo/transport plane,
designated as an EC-130. The “E” designation signified
that the aircraft was configured for electronic warfare
[EW] and psychological operations. That included
providing intelligence, surveillance and reconnaissance
or EW support to ground-based military units in a
combat zone via highly sensitive and sophisticated
onboard electronic systems.
The EC-130 aircrews generally consisted of the
Aircraft Commander (pilot), co-pilot, navigator, and
flight engineer. The EW section–depending on the
particular mission–would consist of up to eight
additional members; EW specialists, linguists, and an
airborne maintenance technician for the EW
equipment. Major Voorhees was also cross-qualified as
an EW Officer [EWO]. At the time of his trial, he had
six combat deployments, had flown 179 combat

7
missions, with 1,183 combat flight hours.
2. Petitioner’s charges arose during the time-frame
of July 2012 to July 2013. The initial allegations did
not come to light until some seven months after their
return to the United States, when HB (a crewmember)
confessed to her husband that she had “cheated” on
him with Petitioner. Pet.App. 50a-51a.
3. Major Voorhees was tried by a general courtmartial [GCM], consisting of a Military Judge and
Members (jurors) at Davis-Monthan Air Force Base,
Arizona (his home Base) in early January 2015. Id. at
46a-47a. The Members convicted him of one
Specification of sexual assault in violation of the then
current version of 10 U.S.C. § 920; five Specifications
of “conduct unbecoming an officer” in violation of 10
U.S.C. § 933; and acquitted him of one § 933
Specification.6 Id.
The Members–in accordance with military
procedure–sentenced Petitioner to a Dismissal (under
dishonorable conditions), confinement for three years,
and total forfeiture of all pay and allowances on 9
January 2015. Id. He entered confinement that day.
Petitioner was convicted under 10 U.S.C. § 933 of
the following:
(1)

6

Asking [HB] “inappropriate questions, to wit:
‘Have you ever cheated on your husband?’,
‘Have you ever sent him pictures?’, and ‘Can
I have pictures of you?’”[Emphasis added];

Notably, this was the only § 933 offense charged that
involved a male AF member.

8
(2)

“At or near Baltimore, Maryland . . .
massage the back of [HB];”

(3)

“Make to [HB] an inappropriate statement or
question, to wit: ‘I would like to take you
back to my room;” [Emphasis added];

(4)

“Send unprofessional text messages to [MQ],
to wit: ‘What I want to say could end my
career and marriage,’ ‘Your (sic) a very
beautiful woman and I would love to be close
to you,’ ‘What’s your definition of cheating?’
‘So if I asked what color panties you were
wearing?’” [Emphasis added]; and

(5)

“Send unprofessional text messages to [BR],
to wit: ‘This is about to become a game to see
what else I can say that will slip by you,’
‘mind if I ask u (sic) a couple of personal
questions?’ ‘What I want to say could end my
career so I want to make sure you can keep
what I say between us because you seem
really cool?’ ‘Oh, really? What’s under there?’
‘I’ve had a crush on you.’” [Emphasis added].
Id. at 59a-60a.7

All individuals involved were adults; none made any
contemporaneous complaint to anyone.
4. By virtue of his sentence, Petitioner appealed to
the AFCCA via the version of 10 U.S.C. §

7

It requires a leap-of-faith to jump from conduct (or
speech) that is “inappropriate” or “unprofessional” to that which
is “criminal.” The Military Judge instructed the M embers that
“unbecoming conduct” “means conduct morally unfitting and
unworthy rather than merely inappropriate or unsuitable
misbehavior . . . .” Pet.App. 22a-23a.

9
866(b)(1)[2012], then applicable. That court reversed
and dismissed with prejudice the sexual assault
conviction on the basis of factual insufficiency, i.e., the
prosecution failed to disprove that Petitioner had a
reasonable belief that HB was consenting to the sexual
activity. Id. at 57a, 77a-79a. The AFCCA, however,
rejected Petitioner’s arguments that the § 933 offenses
failed to legally state offenses and that the Military
Judge had a duty to “read into” the statute during her
instructions to the Members, a mens rea element. Id. at
61a-62a. It then remanded the case for resentencing.8
Id. at 79a. Petitioner was subsequently released from
confinement after serving slightly more than two years
of his sentence.
5. Upon remand, Petitioner elected to be resentenced by a different Military Judge alone versus
Members. Id. at 30a. After the re-sentencing
proceeding, the Military Judge sentenced Petitioner to
a Dismissal and a Reprimand. Id. The GCM Convening
Authority only approved the Dismissal, which, as noted
above, is under dishonorable conditions. Id.
6. Petitioner again appealed to the AFCCA, which
re-affirmed his convictions under 10 U.S.C. § 933, and
affirmed his sentence to a Dismissal. Id. at 45a.
7. Major Voorhees then petitioned CAAF for
review, which in turn granted review–as relevant
here–on two issues:

8

Under military procedure then in effect, sentences were
imposed in a unitary fashion, i.e., one aggregate sentence is
imposed for all convictions combined, versus individual sentences
for each conviction, to then run concurrently or consecutively.

10
a.

Whether or not the charged § 933 offenses
legally stated offenses; and

b.

“[W]hether the military judge erred when
she failed to instruct the panel on a mens rea
for Article 133, UCMJ [10 U.S.C. § 933].” Id.
at 3a.

In its decision, CAAF merged these two issues into a
single “mens rea” issue. Id.
CAAF concluded–in a footnote–that using the terms
“inappropriate” or “unprofessional” coupled with the
phrase “unbecoming an officer and a gentleman,” were
sufficient “words of criminality to state an offense. . . .”
Id. at 21a.9 Relying on one of its earlier “general
intent” decisions, CAAF concluded that where the
crime “was a military-specific offense . . . the
government need only ‘prove general intent in order to
obtain a conviction.’” [Id. at 23a], [quoting United
States v. Caldwell, 75 M.J. 276, 278 (CAAF), cert.
denied, 137 S.Ct. 248 (2016)]. But, CAAF nowhere
explains the source of this conclusion. The Fifth and
Sixth Amendments do not provide authority to excuse
a mens rea requirement, nor does the UCMJ.
Again, quoting Caldwell, CAAF held “We therefore
conclude that general intent sufficiently separates
lawful and unlawful behavior in this [§ 933] context. .

9

Without distinguishing or disapproving a prior decision
to the contrary, both courts below ignored the following: “The
addition of the phrase ‘which conduct was unbecoming an officer
and a gentleman’ adds nothing to the legal effect of the purported
misconduct.” United States v. Shober, 26 M.J. 501, 503 (AF CMR),
aff’d, 23 M.J. 249 (CMA 1986).

11
. .” Id. at 27a. How this serves to distinguish a “lawful”
back rub from an “unlawful” one, was not addressed by
CAAF. Furthermore, nowhere in its discussion of the
mens rea issue in § 933, does CAAF discuss, much less
cite to, the long-standing precedents of this Court,
beginning with Morissette, to Elonis, to Rehaif.10 This
Court has never held that criminal prosecutions under
the UCMJ are somehow exempt from its mens rea
jurisprudence. Nor does the Court’s decision in Parker
v. Levy, 417 U.S. 783 (1974), suggest such an
exemption–indeed, as discussed infra, Levy, portends
the contrary.
Finally, CAAF’s decision here is internally
inconsistent. CAAF concluded that a general intent of
the actus reus sufficiently “separates lawful and
unlawful behavior” in the context of § 933, Id. at 26a27a, CAAF then sets forth an inconsistent test, stating
that “conduct unbecoming” depends upon “whether the
officer possessed general intent to act indecoriously,
dishonestly, or indecently.” [Emphasis added; Pet.App.
25a-26a]. But, Major Voorhees was not charged with
acting “indecoriously, dishonestly, or indecently.”
Furthermore, regardless of CAAF’s judicially labeling
§ 933 as a “general intent” crime, the reality is that
when one “inten[ds] to act indecoriously, dishonestly, or
indecently,” that constitutes a mens rea which under
Elonis and Rehaif and their antecedents, must be
specifically instructed upon.

10

Rehaif was decided six days prior to CAAF’s decision
here, and roughly six weeks prior to CAAF denying Petitioner’s
Motion for Reconsideration.

12
REASONS FOR GRANTING THE PETITION
In our republic, a speculative possibility that
a man’s conduct violated the law should
never be enough to justify taking his liberty.11
CAAF’s decision marks a sharp departure from the
settled mens rea jurisprudence of this Court. It
establishes a negligence standard for criminal liability
under the guise of labeling 10 U.S.C. § 933 a “general
intent” crime, in direct conflict with Elonis. CAAF’s
general intent premise, if not corrected or clarified by
this Court, has the potential to affect hundreds of
military cases at the trial and appellate levels. Absent
intervention here, the Service Courts of Criminal
Appeals and CAAF will continue their erroneous
application of basic constitutional procedure–the
elimination of mens rea requirements–contrary to this
Court’s precedents.
I. CAAF’S DECISION CONTRAVENES THE
CONSTITUTION.
The Constitution grants Congress considerable
power in Article I, § 8. That includes the power to
deprive citizens of their liberty, their property, and
even their lives. It also gave Congress the power over
the Nation’s military by including the Make Rules
Clause, while Article II, § 2, cl.1, designates the
President as Commander-in-Chief. However, when it
came time to add the Bill of Rights to the Constitution,
the Drafters included only one military exclusion in the
Fifth Amendment, i.e., the Grand Jury exemption.
Nothing other than that exempts Congress from

11

United States v. Davis, 139 S.Ct. 2319, 2335 (2019).

13
enacting military criminal statutes which lessen (or
omit) the “fair notice” provisions of the Due Process
Clause and the Sixth Amendment’s Informed Clause.
Congress cannot create a crime–civilian or
military–with lifetime punishments which has no mens
rea element. In its decision below, CAAF assumed that
Congress could do so (without citing any authority),
but CAAF is simply wrong and only this Court can tell
them that. The issue here is not Congressional power
under the Make Rules Clause to delineate military
crimes. Rather, it is the more nuanced issue that when
Congress enacts a military criminal statute such as 10
U.S.C. § 933, must it also comply with the mens rea
element requirement? Furthermore, where the statute
itself is silent on that issue, must the military courts
(to include courts-martial) “read into” the elements of
the offense, a mens rea provision, as this Court has
repeatedly held in the civilian context? Here again,
CAAF said no–with due respect, CAAF is wrong again.
Unlike the express Grand Jury exception for military
criminal proceedings, nothing in the Constitution
exempts military crimes with a lifetime stigma and
prohibitions from a mens rea element. As this Court
held last term:
Respect for due process and the separation of
powers suggests a court may not, in order to
save Congress the trouble of having to write
a new law, construe a criminal statute to
penalize conduct it does not clearly proscribe.
United States v. Davis, 139 S.Ct. at 2333. Only this
Court can remind CAAF of this principle.

14
II. CAAF’S DECISION MISCONSTRUES
PLAIN, SIMPLE, AND LONG-STANDING
PRECEDENTS FROM THIS COURT.
A. The Mens Rea Jurisprudence.
The Fifth and Sixth Amendments to the
Constitution provide two fundamental and clear indicia
of the Framers’ intent with respect to criminal charges.
First, the Due Process Clause requires fair notice of the
elements of a criminal charge to include an applicable
mens rea element. With the exception of minor, “strict
liability” offenses, where a criminal statute does not
contain an express mens rea element, this Court has
required one to be “read into” it. Cf. Morissette, supra.
Second, the “Informed” Clause of the Sixth Amendment
expressly requires this as well. Justice Jackson said it
succinctly in Morissette: there must be a “concurrence
of an evil-meaning mind with an evil-doing hand. . . .”
342 U.S. at 257. CAAF’s decision below turns this
principle on its head to the detriment of our
Servicemembers. Here, the issue is both simple and
stark–how can a consensual back rub, between two
adults, in the privacy of a hotel room, constitute either
an “evil-meaning mind” or an “evil-doing hand?” Law,
logic, and common sense–separately and combined–say
that they cannot, thus requiring this Court’s
intervention to correct CAAF’s error.
Section 933 of Title 10, U.S. Code, is sui generis. It
neither defines what conduct or speech is unbecoming,
nor does it contain any mens rea element. As this case
demonstrates, it also criminalized speech which was
nothing more than sexual innuendo, e.g., “Have you
ever cheated on your husband?” or a wishful fantasy,
“I would like to take you back to my room.” It also

15
criminalized innocuous conduct, a consensual back
massage to an adult female in the privacy of her hotel
room. There was no allegation that the physical contact
was done with force, under duress, or under
circumstances that HB was incapable of consenting.
This was innocent behavior where mens rea was crucial
to establish that it was criminal. Cf. Lawrence v. Texas,
supra. Both appellate courts below rejected Petitioner’s
claims that the § 933 offenses as charged, not only
failed to state an offense, but that the Constitution
mandated a mens rea (“evil mind”) element requiring
an instruction to the fact-finder.
CAAF is wrong–both in its analysis and application
of this Court’s mens rea jurisprudence. Since Morissette
was decided in 1952, Congress has amended the UCMJ
numerous times with a major revision effective
beginning in 2019.12 At no time did Congress ever
state, much less imply, that the mens rea principles in
the Fifth and Sixth Amendments do not apply to the
UCMJ–even assuming that the Constitution would
allow it. Furthermore, CAAF ignored military
“regulations, or customs having the effect of law,”
where the Commander-in-Chief has since 1951,
exercised his delegated powers under 10 U.S.C. § 936,
in promulgating the Manuals for Courts-Martial–which
predated Morissette by one year–mandating that those
drafting military criminal charges under the UCMJ
allege “intent” as an element, or where none is
specified in the statute, such as with 10 U.S.C. § 933,
to include words of criminality to provide fair notice to

12

Nat’l Defense Authorization Act for FY 2017, Pub. L. No.
114-328, 130 Stat. 2000 (2016).

16
an accused.
The Constitution does not authorize this military
differentiation as it does in the Grand Jury contexts.
Congress has not claimed any such authority–even if it
could–under the Make Rules Clause. If CAAF had any
residual doubts on the mens rea issue, they could have
looked for guidance from the Commander-in-Chief in
the Manual For Courts-Martial. The Manual instructs
that, at a minimum, charges under 10 U.S.C. § 933,
must contain “words of criminality” to avoid the precise
issue here. Since the Government did not raise any
issue under the Make Rules Clause as providing any
authority for CAAF to exempt § 933 from the Manual’s
requirements or this Court’s precedents, they should
not be heard to do so now.
Since 1951, the year the UCMJ became effective,
t h e M anual for Co u r t s - M a r t i a l [ “ M C M
(1951)”](promulgated as an Executive Order pursuant
to the authority delegated to the President under 10
U.S.C. § 836), required in paragraph 28(a)(3)–in
addition to the statutory elements–the following:
Any intent, or state of mind such as guilty
knowledge, expressly made an essential
element of an offense should be alleged . . . If
the alleged act of the accused is not in itself
an offense, but is made an offense by
applicable statute (including Articles 133
and 134), regulations, or custom having the
effect of law . . . words importing criminality
such as “wrongfully,” “unlawfully,” “without
authority,” or “dishonorably,” depending
upon the nature of the particular offense
involved, should be used to describe the

17
accused's acts. [Emphasis added].13
Major Voorhees was convicted of violating Article
133, UCMJ, 10 U.S.C. § 933, with Specifications that
failed to allege any “intent, or state of mind,” much less
alleging any words of criminality. General intent
suffices in a criminal statute only when it protects
innocent conduct. Thus in Carter, there was nothing
“innocent” about robbing a bank by “force and
violence,” so a general intent sufficed.
CAAF held two things that significantly twist this
Court’s precedents into a proverbial pretzel. First, it
said, “Congress is not required to include an explicit
mens rea in every article of the UCMJ.” Pet.App. 23a.
That is true in the abstract, but it ignores the principle
that mens rea is required to separate innocent conduct
from that which is criminal–the issue here. Second,
CAAF held: “[a] statute’s silence can be indicative of a
general intent scienter.” Id. That misreads and
misapplies this Court’s holdings–it is accurate only
where a criminal statute cannot ensnare innocent
conduct, such as in Carter. Here, the speech and
conduct at issue, were facially and presumptively
innocent.
In United States v. X-Citement Video, Inc., 513 U.S.
64, 69 (1994), this Court made it clear that “some form
of scienter is to be implied in a criminal statute even if
not expressed . . . .” Here, CAAF made no effort “to

13

At the time of Petitioner’s trial, the MCM (2012), was in
effect, and although the formatting has since changed, Rule
307(c)(3), Discussion ¶ (G)(i) and (ii), Rules for Courts-Martial
[“RCM”] continue to use virtually the same language as the 1951
edition through the current MCM (2019).

18
avoid construing [§ 933] to dispense with mens rea
where doing so would ‘criminalize a broad range of
apparently innocent conduct.” Staples v. United States,
511 U.S. 600, 610 (1994)[quoting Liparota v. United
States, 471 U.S. 419, 426 (1985)]. CAAF made no effort
to explain just how Petitioner’s wishful statement to an
adult female that “I would like to take you back to my
room,” without more, without words of criminality,
without any mens rea element, is or could be criminal.
CAAF’s response was the antithesis of the
constitutional requirements of fair notice and scienter:
“It was up to the panel [jury] to determine whether
Appellant’s acts constituted conduct unbecoming.”
Pet.App. 24a. But, how would anyone–Petitioner
included–know that his verbal fantasizing (or the
private, consensual back rub) was criminal, especially
as adjudged from the perspective of a fact-finder who
received no mens rea instructions?
It is important to note, that should this Court grant
Major Voorhees relief, that “good order and discipline”
is not going to disappear in our military. See, e.g., 10
U.S.C. § 934. Nor was Petitioner tried on a host of
other offenses under the UCMJ, such as
Fraternization, MCM (2012), Part IV, ¶ 83;
Maltreatment, 10 U.S.C. § 893 (2012)(which includes
sexual harassment); Indecent Language, MCM (2012),
Part IV, ¶ 89; etc. Indeed, all five of Petitioner’s
convictions could have been charged under 10 U.S.C. §
934, as violating “good order and discipline.” But,
under CAAF’s § 934 jurisprudence, that added an
element to plead and prove that the speech or conduct
violated “good order and discipline.” United States v.
Fosler, 70 M.J. 225 (CAAF 2011). By charging Major
Voorhees under § 933, without a mens rea element, it

19
did what Morissette warned of, it “ease[d] the
prosecution’s path to conviction. . . .” 342 U.S. at 263.
Our constitutional scheme certainly demands more.
Justice Gorsuch hit the proverbial nail on the head in
his separate opinion in Sessions v. Dimaya, 138 S.Ct.
at 1224, (Gorsuch, J., concurring in part and
concurring in judgment): “The law’s silence leaves
judges to their intuitions and the people to their fate.
In my judgment, the Constitution demands more.”
Writing for the Court in United States v. Davis, 139
S.Ct. 2319, 2323 (2019), Justice Gorsuch noted in a
slightly different context, the “responsibility for
defining criminal behavior [is given] to unelected
prosecutors and judges . . . .” That is exactly what
happened here. Unelected prosecutors–not Congress,
not the Commander-in-Chief with both inherent and
delegated powers, but military prosecutors–decided
what speech and what conduct in their opinions fell
within the sweep of “conduct unbecoming”under § 933
to criminally charge Petitioner. CAAF then eschewed
any mens rea element instruction to the fact-finder,
which likewise, only served to “to ease the
prosecution’s path to conviction.” Morissette, supra.
CAAF’s decision below is not an outlier. Just weeks
earlier, CAAF denied reconsideration of its decision in
United States v. McDonald, 78 M.J. 376, recon. denied
79 M.J. 94 (CAAF 2019), involving a conviction under
10 U.S.C. § 920 [sexual assault].14 CAAF utilized their
expanding “general intent” approach to the mens rea
issue by not requiring any instructions be “read into”

14

M cDonald’s Petition for Certiorari is pending at this
Court under Dkt. No. 19-557.

20
any provision of the UCMJ without a stated specific
intent element as it did here. CAAF’s dramatic and
erroneous deviation from long-settled precedents from
this Court, as well as 68 years of Presidential direction
to add words of criminality for a mens rea component,
is constitutionally mistaken. Morissette’s warning has
now come to fruition via CAAF:
The purpose and obvious effect of doing away
with the requirement of a guilty intent is to
ease the prosecution’s path to conviction, to
strip the defendant of such benefit as he
derived at common law from innocence of evil
purpose, and to circumscribe the freedom
heretofore allowed juries.
342 U.S. at 263.
This case demonstrates that CAAF’s current
approach to mens rea is wrong as it leaves the
determination as to what is criminal or innocent
conduct to prosecutors, unelected judges, and
uninstructed Members. Here, the words of a wishful
fantasy, “I would like to take you to my room,” or a
consensual back rub between two adults in private,
were deemed to constitute a violation of 10 U.S.C. §
933, yet according to CAAF, did not require proof of
any mens rea or instruction on intent to the Members,
for facially innocent conduct. Words can be slippery
things as this case demonstrates. What differentiates
words that somehow rise to the level of criminal
“conduct unbecoming,” from those that are simply
crude? That distinction is the core of this Petition.
B. Parker v. Levy.
The Government cannot find solace in Parker v.

21
Levy, 417 U.S. 733 (1974). Army Captain Levy was
convicted of inter alia, violating 10 U.S.C. § 933, as was
Major Voorhees. Levy compels reversal for two reasons.
First, there was no mens rea issue there because Levy’s
§ 933 charge included appropriate words of criminality,
that he “wrongfully and dishonorably” committed a
violation of § 933. Id. at 739, n. 6, providing an
appropriate mens rea element. Second, Levy compels
reversal because this Court recognized that “Decisions
of this Court during the last century have recognized
that the longstanding customs and usages of the
services impart accepted meaning to the seemingly
imprecise standards of Arts. 133 and 134.” Id. at 74647 [Emphasis added]. These “customs and usages” are
taught to every recruit, both officer and enlisted, and
include, e.g., saluting superior officers when outdoors
and in uniform; standing at attention and saluting the
Flag as it is raised, lowered, or passes by while in
uniform; referring to superior officers as “Sir” or
“Ma’am;” etc. For military prosecutors, the “customs
and usages” in drafting criminal charges–at least since
1949–require words of criminality where the
underlying statute does not contain an intent
element.15
Since President Truman’s MCM (1951),
implementing the UCMJ, the “customs and usages of
the services” have mandated that words of criminality
15

Prior to the enactm ent of the UCMJ, similar
requirements were found in the Army Manual for Courts-Martial
(1949), ¶ 29(a), under the former Articles of W ar. Copies of all
MCM’s are available at the Library of Congress website at:
http://www.loc.gov/rr/frd/Military_Law/CM-manuals.html [Last
accessed: 6 December 2019].

22
be added to § 933 specifications (counts) to
accommodate the constitutional mens rea element
requirements. Thus, CAAF ignored the command of
this Court to look at § 933 through the “longstanding
customs and usages of the services” vis-a-vis the mens
rea issue. At issue in Levy was whether or not § 933
was “void for vagueness.” Petitioner does not raise that
issue herein.16
Congress has abrogated many of the foundational
pillars Levy was based upon. The Court in Levy relied
upon a pre-UCMJ plurality decision, Burns v. Wilson,
346 U.S. 137, 140 (1953), which held: “military law. . .
is a jurisprudence which exists separate and apart
from the law which governs in our federal
government.” While perhaps true at one point in time,
by the time Burns was decided, Congress had expressly
rejected that concept when it enacted 10 U.S.C. §
836–now § 836(a)–bringing military practice under the
UCMJ in line with “the principles of law and the rules
of evidence generally recognized in the trial of criminal
cases in the United States district courts. . . .”
Additionally, as part of the UCMJ, Congress created a
civilian appellate court, the Court of Military Appeals,
since renamed the CAAF.
In 1984, the President, using his power, both
inherent as Commander-in-Chief and as delegated by
Congress in § 836, promulgated the Military Rules of
Evidence, in the MCM (1984), a virtual analogue (with
minor exceptions) to the Federal Rules of Evidence. In

16

Petitioner does not concede the vagueness issue, only
that it was not raised below.

23
1989, Congress enacted 10 U.S.C. § 867a, which
permits this Court to review “[d]ecisions of the United
States Court of Appeals for the Armed Forces” by a
writ of certiorari, thus permitting review and
Constitutional “supervision” of CAAF’s decisions. In
2001, Congress enacted 10 U.S.C. § 825a, mandating
that there be “not less than 12” Members in most
capital cases, as in federal capital cases; and in Loving
v. United States, 517 U.S. 748 (1996), this Court
approved the President’s inclusion of “aggravating
factors” in military capital cases in the then Rule 1004,
Rules for Courts-Martial, MCM (1984).
Thus, the legal landscape has changed considerably
since the pre-UCMJ era of Burns v. Wilson, as well as
since the time Parker v. Levy was decided in 1974 (he
was convicted in 1967), and military law under the
UCMJ is in reality, no longer “separate and apart”
from the principles and practice of federal criminal
law. See generally, Sen. Sam Irvin, Jr., The Military
Justice Act of 1968, 45 Mil. L. Rev. 77, 83
(1969)[describing Act which “modernizes outmoded and
cumbersome military trial procedures to conform more
closely with federal court practices.”].
C. CAAF Ignored Elonis and Rehaif.
CAAF did not reference (or cite to) either Elonis or
Rehaif in its decision. But, in Rehaif, this Court
unequivocally stated, “We have interpreted statutes to
include a scienter requirement even where the
statutory text is silent on the question.” 139 S.Ct. at
2197. That concept is “traceable to the common law.”
Id. at 2195. The text of § 933 is silent as to scienter.
Rehaif went on to state, “we normally presume that
Congress did not intend to impose criminal liability on
persons who, due to lack of knowledge, did not have a

24
wrongful mental state.” Id. at 2198. Whether or not the
Government could have proven “a wrongful mental
state” here, is not the issue. The focus must be on the
fact that Petitioner’s panel was never instructed as to
any scienter element and CAAF’s avoidance of the
issue by simply labeling § 933 a “general intent” crime,
misses the mark.
Elonis held with clarity that “[t]he ‘central thought’
is that a defendant must be ‘blameworthy in mind’
before he can be found guilty, a concept courts have
expressed over time through various terms such as
mens rea, scienter, malice aforethought, guilty
knowledge, and the like.” 135 S.Ct. at 2009, [citing
Morissette, 342 U.S. at 252]. But, CAAF failed to
address how an aspirational statement, “I would like to
take you to my room,” or how a private, consensual
back rub between two adults, rises to the level of being
“blameworthy in mind.” Elonis dealt with speech, as do
four of Petitioner’s five convictions. But, as this Court
held:
Elonis's conviction, however, was premised
solely on how his posts would be understood
by a reasonable person. Such a “reasonable
person” standard is a familiar feature of civil
liability in tort law, but is inconsistent with
“the conventional requirement for criminal
conduct—awareness of some wrongdoing.”
[citing Staples, 511 U.S., at 606–607].
135 S.Ct. at 2011. Elonis continued by observing:
“Elonis can be convicted, the Government contends, if
he himself knew the contents and context of his posts,
and a reasonable person would have recognized that

25
the posts would be read as genuine threats. That is a
negligence standard.” Id. That is precisely the
standard CAAF used to affirm Petitioner’s
convictions–that a “reasonable person would have
recognized” that his language and conduct were
“unbecoming.”
Here, CAAF concluded as follows:
The military judge’s instructions adequately
explained the actus reus of Appellant’s
crimes—actions that could not, under the
circumstances, have been innocent—and
informed the members that they were to
consider Appellant’s conduct “under the
circumstances.” Under our precedent, this
instructional language “can reasonably be
understood as requiring the panel members
to determine whether Appellant” knew that
he was engaging in certain conduct. [citing
Caldwell, 75 M.J. at 283].
Pet.App. 27a. That conclusion contravenes the
conclusion of this Court in Elonis: “. . . Elonis’s
conviction cannot stand. The jury was instructed that
the Government need prove only that a reasonable
person would regard Elonis’s communications as
threats, and that was error. Federal criminal liability
generally does not turn solely on the results of an act
without considering the defendant's mental state.” 135
S.Ct. at 2012.
III. THE IMPORTANCE OF THIS CASE.
This case is profoundly important to the proper
functioning of our military justice system under the
UCMJ. For almost 70 years, Congress via 10 U.S.C. §
836, and the Commander-in-Chief via the Manuals for

26
Courts-Martial, have uniformly held that if a punitive
provision of the UCMJ does not contain an express
intent element, a mens rea element must be read into
that statute’s elements consistent with federal criminal
practice. Virtually every day at U.S. military bases
around the world, some Soldier, Sailor, Airman, or
Marine will be in jeopardy of being convicted of
innocent conduct based upon CAAF’s erroneous
interpretation and application of mens rea.17
In McDonald, for example, CAAF’s analysis was
clearly faulty when it rationalized that because rape
was historically a general intent crime, that sexual
assault under 10 U.S.C. § 920 is likewise a general
intent crime. 78 M.J. at 380. But, that comparison is
inapposite. Rape, under the UCMJ, historically
consisted of sexual penetration (however slight) “by
force and without consent.” MCM (1951), ¶ 199(a). As
in Carter, the “by force and without consent” elements
sufficed to protect innocent conduct.
CAAF’s error is highlighted by its conclusion in
McDonald, “Because we have determined that
Congress intended [then] Article 120(b)(1)(B) [10
U.S.C. § 920(b)(1)(B)] to state a general intent offense,
that is the end of the matter. 78 M.J. at 380-81
[emphasis added]. But, Morissette and its progeny
emphatically demonstrate that it is not “the end of the
matter” with respect to the mens rea issue, and this
Court respectfully must correct CAAF.
17

This includes 1,380,000 active duty members (including
the Coast Guard) as of 31 October 2019. Source:
[la st
h ttp s://w w w .d m d c.o sd .m il/a p p j/d w p /d w p _ r e p o r ts.jsp
accessed: 17 December 2019].

27
Finally, this case provides an ideal vehicle to
resolve the military mens rea issue identified here. It
was litigated extensively and expressly below as the
Appendices demonstrate. CAAF’s refusal to reconsider
its decision based upon Elonis, establishes that it is not
about to alter its “general intent” approach to mens rea
under the UCMJ, absent this Court’s intervention. The
matter will not percolate in the Service appellate
courts as they are bound by CAAF’s precedents. The
federal Circuit Courts of Appeal lack jurisdiction over
courts-martial convictions, except in the habeas corpus
context.
The issue needs to be resolved one way or the other,
and only this Court can resolve it. It is not going to go
away as Caldwell (certiorari denied); McDonald
(certiorari pending); and this case demonstrate.
Furthermore, until it is resolved, competent defense
counsel will continue to litigate the issue.
CONCLUSION
The petition for a writ of certiorari respectfully
should be granted. Alternatively, certiorari should be
granted, CAAF’s decision vacated, and the case
remanded to the CAAF for further consideration in
light of this Court’s decisions in Elonis, Rehaif, and
Davis.

Respectfully submitted,
DONALD G. REHKOPF , JR .
Counsel of Record
Law Office of Donald G. Rehkopf, Jr.
31 East Main Street, 2nd Floor

28
Rochester, New York 14614
(585) 434-0232
usmilitarylaw@gmail.com
and
BENJAMIN H. DEYOUNG,
Major, USAF
Appellate Defense Counsel
Air Force Appellate Defense Division
1500 W. Perimeter Rd, Suite 1100 JB
Andrews NAF, MD 20762-6604 (240)
612-4770
benjamin.h.deyoung.mil@mail.mil
Counsel for Petitioner
December 2019

APPENDIX

1a
APPENDIX A
This opinion is subject to revision before publication
UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
____________________
UNITED STATES
Appellee
v.
Paul D. VOORHEES, Major
United States Air Force, Appellant
No. 18-0372
Crim. App. No. 38836 (reh)
Argued February 21, 2019—Decided June 27, 2019
Military Judges: Natalie D. Richardson (trial) and
Mark F. Rosenow (sentence rehearing)
For Appellant: Terri R. Zimmermann, Esq.
(argued); Major Jarett Merk and Jack B.
Zimmermann, Esq. (on brief).
For Appellee: Captain Anne M. Delmare
(argued); Colonel Julie L. Pitvorec, Lieutenant

2a
Colonel Joseph Kubler, and Mary Ellen Payne,
Esq. (on brief).
Judge SPARKS delivered the opinion of the
Court, in which Chief Judge STUCKY, and
Judges RYAN, OHLSON, and MAGGS, joined.
______________
Judge SPARKS delivered the opinion of the Court.
A panel of officer members convicted Appellant,
contrary to his pleas, of five specifications of conduct
unbecoming an officer and a gentleman and one
specification of sexual assault in violation of Articles
133 and 120, Uniform Code of Military Justice
(UCMJ), 10 U.S.C. §§ 933, 920 (2012). The panel
acquitted Appellant of one specification of conduct
unbecoming an officer and a gentleman. The members
sentenced Appellant to forfeiture of all pay and
allowances, three years of confinement, and dismissal.
The convening authority approved the sentence as
adjudged.
The United States Air Force Court of Criminal
Appeals set aside Appellant’s Article 120, UCMJ,
conviction for factual insufficiency, but affirmed his
remaining convictions and ordered a sentence
rehearing. United States v. Voorhees, No. ACM 38836,
2016 WL 7028962, at *2, 2016 CCA LEXIS 752, at *2
(A.F. Ct. Crim. App. Nov. 23, 2016) (unpublished). A
military judge sitting alone conducted the sentence
rehearing for the remaining five Article 133, UCMJ,

3a
convictions, and sentenced Appellant to a dismissal
and a reprimand. The convening authority approved
the dismissal.
We granted review to determine: (1) whether
trial counsel’s final arguments on the merits
contained prejudicial prosecutorial misconduct and (2)
whether the military judge erred when she failed to
instruct the panel on a mens rea for Article 133,
UCMJ. 1 We now hold neither issue warrants relief.
Background
The lower court adequately summarized the
facts underlying Appellant’s offense as follows:
Appellant’s
convictions
for
conduct unbecoming are rooted in the
sexual comments and actions he directed
toward subordinate female Airmen with
whom he deployed or went on temporary
duty assignments (TDY) on different
occasions. Appellant is an EC–130 pilot
who performed duty as an aircraft
commander and a co-pilot during several
deployments to Afghanistan. While TDY,
deployed, and transiting to and from
Appellant also petitioned this Court to review the
mens rea issue through a failure to state an offense analysis,
and asked us to decide it separately from the instructional error
issue. We thought it sufficient to address mens rea solely
through our review of the military judge’s instructions.
1

4a
deployment, Appellant used electronic
communications to make a variety of
comments with sexual undertones to a
Senior Airman …, a Technical Sergeant
…, and a First Lieutenant …. The
comments included telling the Senior
Airman he wanted to take her back to his
hotel room, asking all three individuals
if they cheated on their husband or
significant other, and asking two of them
about the undergarments they were
wearing.
Voorhees, 2016 WL 7028962, at *2, 2016 CCA LEXIS
752, at *3. Appellant was also convicted of conduct
unbecoming an officer for giving Senior Airman HB a
back massage. At the time of this massage, “Appellant
served as the aircraft commander for an eightmember aircrew where [Senior Airman] HB was the
only female and the junior member of the crew.”
Voorhees, 2016 CCA LEXIS 752, at *4, 2016 WL
7028962, at *2.
Discussion
I. Prosecutorial Misconduct
Appellant alleges trial counsel’s findings and
rebuttal arguments contained numerous instances of
prosecutorial misconduct, ranging from personal
attacks on Appellant and his defense counsel, to
improper vouching and expressing personal opinions.

5a

We review prosecutorial misconduct and
improper argument de novo and where, as here, no
objection is made, we review for plain error. United
States v. Andrews, 77 M.J. 393, 398 (C.A.A.F. 2018).
“The burden of proof under plain error review is on the
appellant.” Id. (citing United States v. Sewell, 76 M.J.
14, 18 (C.A.A.F. 2017)). “Plain error occurs when (1)
there is error, (2) the error is clear or obvious, and (3)
the error results in material prejudice to a substantial
right of the accused.” Id. at 401 (internal quotation
marks omitted) (quoting United States v. Fletcher, 62
M.J. 175, 179 (C.A.A.F. 2005)). Thus, we must
determine: (1) whether trial counsel’s arguments
amounted to clear, obvious error; and (2) if so, whether
there was “a reasonable probability that, but for the
error, the outcome of the proceeding would have been
different.” United States v. Lopez, 76 M.J. 151, 154
(C.A.A.F. 2017) (internal quotation marks omitted)
(quoting Molina-Martinez v. United States, 136 S. Ct.
1338, 1343 (2016)); see also United States v.
Tovarchavez, __ M.J. __ (8) (C.A.A.F. 2019)
(explaining that, where nonconstitutional error is
forfeited, the Molina-Martinez test should be applied).
As we have explained repeatedly:
Trial prosecutorial misconduct is
behavior by the prosecuting attorney
that oversteps the bounds of that
propriety and fairness which should
characterize the conduct of such an

6a
officer in the prosecution of a criminal
offense. Prosecutorial misconduct can be
generally defined as action or inaction by
a prosecutor in violation of some legal
norm or standard, e.g., a constitutional
provision, a statute, a Manual rule, or an
applicable professional ethics canon.
Prosecutors have a duty to refrain from
improper methods calculated to produce
a wrongful conviction.
Andrews, 77 M.J. at 402 (internal quotation marks
omitted) (quoting Fletcher, 62 M.J. at 178, United
States v. Meek, 44 M.J. 1, 5 (C.A.A.F. 1996, and United
States v. Berger, 295 U.S. 78, 88 (1935)).
As trial counsel tried to establish his bona fides
with the court members during voir dire, he
introduced himself as an attorney of considerable
experience and gravitas:
I’m Captain Josh Traeger. I’m a senior
trial counsel assigned to Peterson Air
Force Base. In that capacity I travel
around the world, between 200 and 250
days a year, prosecuting the Air Force’s
most serious cases.
….

7a
… And on behalf of the Unites State [sic]
of America, I am happy to be prosecuting
this case.
Despite his self-described expertise, trial counsel’s
findings and rebuttal arguments were riddled with
egregious misconduct, much of which amounted to
clear, obvious error. We are most concerned with trial
counsel’s: (1) personal attacks on defense counsel; (2)
personal attacks on Appellant; and (3) expressing
personal opinions, bolstering, and vouching. We
address each in turn.
Personal Attacks on Defense Counsel
First, trial counsel accused defense counsel of
“misplaced lying,” and made the defense theory of the
case seem fantastical, saying “defense counsel’s
imagination is not reasonable doubt.” Both
statements amount to clear, obvious error. 2
“[I]t is … improper for a trial counsel to attempt
to win favor with the members by maligning defense
The Government contends trial counsel’s attack on
defense counsel was simply challenging “defense counsel’s
misrepresentation of the record and the law during closing
argument.” If the defense counsel mischaracterizes the evidence
or misstates the law, the trial counsel may object, ask the
military judge for an instruction, and explain the
mischaracterization during rebuttal argument. But he may not
label the defense counsel a liar or fabricator, nor may he engage
in any argument amounting to prosecutorial misconduct. See
Fletcher, 62 M.J. at 181.
2

8a
counsel,” including accusing the defense counsel of
fabrication. See Fletcher, 62 M.J. at 181–82 (citations
omitted). As Fletcher warned, but trial counsel failed
to heed, when trial counsel maligned defense counsel,
he risked both turning the trial into a “popularity
contest” and influencing the members such that they
may not have been able to objectively weigh the
evidence against Appellant. Id. “Rather than deciding
the case solely on the basis of the evidence presented,
as is required, the members [could have been]
convinced to decide the case based on which lawyer
they like[d] better.” Id. (internal quotation marks
omitted) (quoting United States v. Young, 470 U.S. 1,
18 (1985)). Indeed, the panel could have been so
swayed by trial counsel’s disparaging remarks that
they “believe[d] that the defense’s characterization of
the evidence should not [have been] trusted, and,
therefore, that a finding of not guilty would [have
been] in conflict with the true facts of the case.” Id.
(internal quotation marks omitted) (quoting United
States v. Xiong, 262 F.3d 672, 675 (7th Cir. 2001)).
Trial counsel’s attacks on defense counsel were all the
worse given that they “were gratuitous and obviously
intended to curry favor with the members. [He] drew
… comparisons between [his] style and that of defense
counsel,” framing defense counsel as an overly
imaginative liar, while contrasting himself as a highly
experienced, well-trained prosecutor. 3 Id. at 182.
3 As above, during voir dire, trial counsel referred to
himself as “a senior trial counsel” who “travel[s] around the
world, between 200 and 250 days a year, prosecuting the Air
Force’s most serious cases.” He made a statement with similar
implications as he began his rebuttal argument, saying

9a

The trial counsel’s obvious attempts to
win over the [panel] by putting [him]self
in a favorable light while simultaneously
making defense counsel look like a [liar]
who would say anything to get his client
off the hook were plainly improper. The
trial counsel erroneously encouraged the
members to decide the case based on the
personal qualities of counsel rather than
the facts. Not only did [his] comments
have the potential to mislead the
members, but they also detracted from
the dignity and solemn purpose of the
court-martial proceedings.
Id.
Personal Attacks on Appellant
Next, trial counsel also repeatedly attacked
Appellant’s character, calling him “perverted,” “sick,”
and a “narcissistic, chauvinistic, joke of an officer.” At
one point, trial counsel went so far as to describe
Appellant as, “[n]ot an officer, not a gentleman, but a
pig.” Later, trial counsel stressed this theme further,
adding,
“Disgusting.
Disgusting.
Deplorable.
“Members, I don’t—I don’t go TDY and leave my family 250 days
a year to sell you a story. I don’t do that.” Together, these
statements may have falsely suggested to the panel that trial
counsel was so experienced he could select and try only winning
cases.

10a
Degrading. That’s the nature of the conduct that the
accused committed. That’s the nature of this man.” 4
These attacks on Appellant also amount to clear error.
See Andrews, 77 M.J. at 402 (holding trial counsel’s
references to the accused as a liar and Don Juan to be
error).
“Disparaging comments are also improper
when they are directed to the defendant himself.”
Fletcher, 62 M.J. at 182. Trial counsel’s word choice
served as “more of a personal attack on the defendant
than a commentary on the evidence.” Id. at 183.
“[S]uch conduct is inconsistent with the duty of the
prosecutor to ‘seek justice, not merely to convict.’ ” Id.
at 182 (quoting United States v. White, 486 F.2d 204,
206 (2d Cir. 1973)). Trial counsel had only to
demonstrate that Appellant violated the UCMJ—not
that he was perverted, deplorable, disgusting,
chauvinistic, narcissistic, or a pig. Nor was it
necessary for trial counsel to repeat these insults
throughout his argument; in doing so, trial counsel
risked unduly inflaming the passions of the panel. See
United States v. Clifton, 15 M.J. 26, 29, 30 (C.M.A.
1983) (“It is axiomatic that a court-martial must
render its verdict solely on the basis of the evidence
presented at trial” and “it is improper for counsel to
While it was error for trial counsel to use these
adjectives to disparage Appellant, it was not error for the trial
counsel to use these adjectives to describe Appellant’s conduct.
See generally Fletcher, 62 M.J. at 182 (explaining that
disparaging comments are improper when they amount to a
personal attack, directed at the accused; suggesting they do not
otherwise amount to misconduct).
4

11a
seek unduly to inflame the passions or prejudices of
the court members.” (citations omitted)).
Expressing Personal Opinions, Bolstering, and
Vouching
Trial counsel also improperly expressed his
personal opinion about Appellant’s guilt, utilized
personal pronouns, bolstered his own credibility, and
vouched for government witnesses. While a prosecutor
may argue that the evidence establishes an accused’s
guilt beyond a reasonable doubt, he is prohibited from
expressing his personal opinion that the accused is
guilty. See Young, 470 U.S. at 7.
Trial counsel also made the following statement
during his closing argument: “And here’s where
attention to detail is important. Here’s really where
the attention to detail—and I’ve been doing this a long
time. I’ve been trying cases a long time and I’ve
quickly learned that attention to detail is as important
as any other skill in the courtroom.”
And during rebuttal:
• “Technical Sergeant [BR] is an outstanding
airman; an outstanding noncommissioned
officer in the United States Air Force.”
• Referring to a Government witness’s
testimony: “That was his perception. That was
the truth.”

12a
• “And if there is any doubt in your mind as to
that point or the quality of the United States
evidence on this charge, rely entirely on Senior
Airman [HB’s] credibility. Hang your hat there,
because you can. Because that airman is
credible. She testified credibly; she told you
what happened to her.”
• “[Senior Airman HB’s] not lying. It’s the
truth. It’s what happened.”
• “Members, I don’t—I don’t go TDY and leave
my family 250 days a year to sell you a story. I
don’t do that. And I don’t stand up here and try
to appeal to your emotions. I think I made that
clear in talking about the government’s
presentation of evidence.”
• “But I’m not going to apologize for becoming
emotional when talking about a Major who
sexually assaulted a Senior Airman. I’m not
going to apologize for that.”
• “[W]e win. Clearly.”
• “I know that the defense counsel’s
imagination … is not reasonable doubt.”
(Emphasis added.)
• “I’m not in the business of convicting innocent
people, but this man is guilty.”
• Appellant is “without a doubt … guilty.”
These statements are all clear and obvious error.
From voir dire forward, trial counsel tried to
convince the members to convict based on his
purported integrity, credibility, and experience as an

13a
accomplished prosecutor, and vouched for the
credibility of his witnesses, rather than the evidence
presented.
The prosecutor’s vouching for the
credibility of witnesses and expressing
his personal opinion concerning the guilt
of the accused pose two dangers: such
comments can convey the impression
that evidence not presented to the jury,
but known to the prosecutor, supports
the charges against the defendant and
can thus jeopardize the defendant’s right
to be tried solely on the basis of the
evidence presented to the jury; and the
prosecutor’s opinion carries with it the
imprimatur of the Government and may
induce
the
jury
to
trust
the
Government’s judgment rather than its
own view of the evidence.
Young, 470 U.S. at 18–19; see also Fletcher, 62 M.J. at
180 (explaining that “use of personal pronouns in
connection with assertions that a witness was correct
or to be believed” is improper).
Prejudice
Although trial counsel’s misconduct amounted
to grievous error, Appellant fails to establish
prejudice. “In assessing prejudice, we look at the
cumulative impact of any prosecutorial misconduct on

14a
the accused’s substantial rights and the fairness and
integrity of his trial.” Fletcher, 62 M.J. at 184 (citation
omitted). “We weigh three factors to determine
whether trial counsel’s improper arguments were
prejudicial: ‘(1) the severity of the misconduct, (2) the
measures adopted to cure the misconduct, and (3) the
weight of the evidence supporting the conviction.’ ”
Andrews, 77 M.J. at 402 (quoting Sewell, 76 M.J. at
18). Under this test, Appellant has the burden to
prove that there is a “reasonable probability that, but
for the error, the outcome of the proceeding would
have been different.” Lopez, 76 M.J. at 154 (internal
quotation marks omitted) (citation omitted). Because
Appellant failed to demonstrate that trial counsel’s
misconduct was “so damaging” as to call into question
whether the members convicted Appellant on the
basis of the evidence alone, we cannot reverse here.
Sewell, 76 M.J. at 18 (internal quotation marks
omitted) (citation omitted); see also Andrews, 77 M.J.
at 402 (quoting Sewell, 76 M.J. at 18) (“[T]he third
factor [alone] may so clearly favor the government
that the appellant cannot demonstrate prejudice.”
(alterations in original)).
As indicated above, trial counsel’s improper
argument was severe. The misconduct was sustained
throughout argument and rebuttal, occurring with
alarming frequency. See Fletcher, 62 M.J. at 184
(listing “the raw numbers—the instances of
misconduct as compared to the overall length of the
argument,” as well as its persistence throughout
argument, as two “Fletcher factors” to consider when
determining the severity of prosecutorial misconduct).

15a
Its persistence throughout final arguments was
aggravated by the military judge’s total failure to offer
any curative instructions. See id. (listing “whether the
trial counsel abided by any rulings from the military
judge” as another “Fletcher factor”).
Despite the severity of trial counsel’s
misconduct and the absence of curative measures,
however, several other factors militate against finding
prejudice. First, defense counsel’s failure to object to
any of the prosecutorial misconduct is “some measure
of the minimal impact of [the] prosecutor’s improper
argument.” United States v. Gilley, 56 M.J. 113, 123
(C.A.A.F. 2001) (internal quotation marks omitted)
(citation omitted). In Andrews we warned defense
counsel that failing to object to prosecutorial
misconduct “may give rise to meritorious ineffective
assistance of counsel claims.” 77 M.J. at 404. In this
case, the record contains some indication that defense
counsel’s failure to object may have been a “tactical
decision” made as part of his case strategy, rather
than a sign of ineffectiveness. See Darden v.
Wainwright, 477 U.S. 168, 182 (1986) (finding no
prejudice from prosecutorial misconduct where a
defense counsel made “tactical decision[s]” in case
strategy). After standing by and allowing trial
counsel’s improper argument to proceed, defense
counsel told the panel that trial counsel’s argument
was merely an emotional appeal, made because the
Government’s case was weak. He described trial
counsel’s argument as “theatrics,” performed as a
product of:

16a
a lesson that’s taught at law schools
across the country and in the military
advocacy courses. And it is this: if you
have the facts, argue the facts. If you
have the law, argue the law. If you have
neither, then literally the lesson is to
pound your fist and try to appeal to the
emotions of the panel.
Defense counsel’s argument explains why he
acquiesced to trial counsel’s improper argument—not
because he was ineffective, but because he wanted
trial counsel to make a spectacle of himself. Defense
counsel sought to “plac[e] … the prosecutors’
comments and actions in a light that was more likely
to engender strong disapproval than result in
inflamed passions against” Appellant. Darden, 477
U.S. at 182. Put simply, in the context of the entire
court-martial, trial counsel’s arguments were unlikely
to prejudice the panel against Appellant. This is
especially true given the composition of the panel,
which leads to our next point.
The panel at Appellant’s court-martial was
comprised of colonels and lieutenant colonels. As
senior officers, these individuals were uniquely
situated to assess whether Appellant’s conduct was
unbecoming under Article 133, UCMJ. See Article
25(d)(2), UCMJ, 10 U.S.C. § 825(d)(2) (2012)
(requiring that the convening authority detail officers
“best qualified for the duty by reason of age,
education, training, experience, length of service, and
judicial temperament” to serve as panel members).

17a
After all, these members too were bound by the
Manual for Courts-Martial, United States (MCM), and
required by Article 133, UCMJ, to act honorably,
gracefully, and decently, as officers and gentlemen.
See MCM pt. IV, para. 59.c.(2) (discussing the traits
expected of commissioned officers). Trial counsel’s
arguments were thus unlikely to impede these
experienced officers’ ability to recognize conduct
unbecoming and weigh the evidence against
Appellant. 5
In addition to defense counsel’s tactical
acquiescence and the members’ unique understanding
of the offense charged, the evidence that Appellant
violated Article 133, UCMJ, “so clearly favor[s] the
government that [A]ppellant cannot demonstrate
prejudice.” Sewell, 76 M.J. at 18. To have convicted
Appellant of Article 133, UCMJ, the panel must have
found:
1. That the accused did or omitted to do certain
acts; and
2. That, under the circumstances, these acts or
omissions constituted conduct unbecoming an
officer and gentleman.

In fact, defense counsel simply left it to the members to
decide whether Appellant’s conduct qualified as conduct
unbecoming, arguing as follows: “[I]t’s your call as to whether or
not those comments were just inappropriate or they went way
over the top. I’m not going to tell you one way or the other.” “Do
those charged words … rise to the level to be a … federal crime?
Is it inappropriate, distasteful, or is it way over the top?… But
that’s for you to decide when you go back there and deliberate.”
5

18a
MCM pt. IV, para. 59.b. (2016 ed.). 6 In the instant
case, the acts charged in the first element of each
specification alleged Appellant acted sexually
inappropriately toward his subordinates. In one
specification, the acts element alleged that Appellant
gave Senior Airman HB a back massage. In the other
four specifications, the acts element alleged Appellant
made
inappropriate
comments
to
various
subordinates. “Regardless of trial counsel’s improper
arguments, there was ample evidence in support of”
Appellant’s convictions. Andrews, 77 M.J. at 403.
Appellant conceded that he gave Senior Airman HB a
back massage when he argued she consented to the
massage as part of his defense to the Article 120,
UCMJ, offense. Each of the other four specifications
was supported by compelling in-court testimony or
documented with physical evidence in the form of text
messages.
Accordingly, Appellant’s court-martial was
neither perfect, nor fundamentally unfair. See
Darden, 477 U.S. at 183 (affirming the lower court’s
finding that the appellant’s “trial was not perfect …
but neither was it fundamentally unfair” (internal
quotation marks omitted) (citation omitted)).
Although trial counsel’s conduct reveals a lack of
Because the lower court set aside Appellant’s Article
120, UCMJ, conviction, we only analyzed the weight of the
evidence pertaining to the Article 133, UCMJ, offenses. Even if
trial counsel’s argument swayed the panel to wrongfully convict
Appellant of violating Article 120, UCMJ, the evidence as to the
Article 133, UCMJ, specifications was so strong that Appellant
cannot demonstrate prejudice. Fletcher, 62 M.J. at 184; Sewell,
76 M.J. at 18.
6

19a
practical legal skills and a level of courtroom etiquette
far below that which we expect of military officers,
judge advocates, and all experienced trial counsel, we
are “confident that the members convicted the
appellant on the basis of the evidence alone.” Fletcher,
62 M.J. at 184. “There was, therefore, no prejudice to
Appellant’s substantial rights.” Andrews, 77 M.J. at
403.
A Note on Prosecutorial Misconduct
Although the law precludes us from finding
plain error, trial counsel’s performance in this case
was not one we would expect from any lawyer, let
alone a “senior” trial counsel.
In every case, and especially a case alleging
unbecoming conduct, trial counsel should take care to
remember that they too are military officers and
should conduct themselves accordingly. In this case,
as he attempted to sway the members to convict
Appellant of conduct unbecoming pursuant to Article
133, UCMJ, trial counsel himself approached the line
of indecorum. Attacking one’s opposing counsel is as
unacceptable as launching ad hominem attacks on the
accused in open court. In our view, the token trait of a
good prosecutor is the ability to be adversarial without
being hostile, but here, unfortunately, trial counsel
was openly hostile and petty, leaving propriety and
good advocacy at the courtroom door. 7
7 The Government’s poor decision-making in this case
was not limited to the trial level. In its brief, the Government

20a

Trial counsel, however, was not the sole
attorney at fault during Appellant’s court-martial. As
we admonished in Andrews, “Military judges are
neither mere figurehead[s] nor are they umpire[s] in
a contest between the Government and accused;” they
too have a “sua sponte duty to [e]nsure that an accused
receives a fair trial.” 77 M.J. at 403–04 (alterations in
original) (internal quotation marks omitted) (citations
omitted). The military judge in Appellant’s case
simply allowed trial counsel to ramble on with his
improper argument. Similarly, although defense
counsel’s failure to object appears to have been a
conscious and tactical choice in the instant case, we
remind all defense counsel they “owe[s] a duty to
the[ir] client[s] to object to improper arguments early
and often.” Id. at 404.
This case aside, the consistent flow of improper
argument appeals to our Court suggests that those in
supervisory positions overseeing junior judge
advocates are, whether intentionally or not,
acknowledged that “[d]isparaging comments directed at an
accused can be improper,” but argued that “[i]n this case, trial
counsel’s comments were a reasonable inference from the
evidence admitted at trial, and not outside the norms of fair
comment in a court-martial where the appellant was accused of
conduct unbecoming of an officer.” Brief for the Government at
19, United States v. Voorhees, No. 18-0372 (C.A.A.F. Jan. 15,
2019). Appellate counsel repeated this sentiment at oral
argument. We find it deeply troubling that experienced appellate
attorneys persistently argued that it is within “the norms of fair
comment” for a trial counsel to refer to an accused as a “pig,” “a
pervert,” and “a joke of an officer.”

21a
condoning this type of conduct. As superior officers,
these individuals should remind their subordinate
judge advocates of the importance of the prosecutor’s
role within the military justice system and should
counsel them to “seek justice, not merely to convict.”
Fletcher, 62 M.J. at 182 (internal quotation marks
omitted) (citation omitted).
“Every attorney in a court-martial has a duty to
uphold the integrity of the military justice system,”
and multiple experienced attorneys failed to do so
here. Andrews, 77 M.J. at 404.
II. Article 133, UCMJ Mens Rea
Appellant also alleges that the military judge
erred when she failed to instruct the panel on a mens
rea for any of the Article 133, UCMJ, specifications. 8
We find no such error.
“Questions pertaining to the substance of a
military judge’s instructions, as well as those
involving statutory interpretation, are reviewed de
novo.” United States v. Caldwell, 75 M.J. 276, 280
Appellant also alleges the Article 133, UCMJ,
specifications wrongfully omitted words of criminality, but we
disagree. The specifications use the terms “inappropriate” or
“unprofessional” or allege the conduct in each specification was
unbecoming an officer and a gentleman. These allegations
sufficiently contain words of criminality to state an offense for
purposes of this appeal. See United States v. Maderia, 38 M.J.
494, 496 (C.M.A. 1994) (explaining the language “conduct
unbecoming” was sufficient to state an offense).
8

22a
(C.A.A.F. 2016) (citations omitted). “Because
Appellant did not object to the military judge’s failure
to instruct the members on a mens rea requirement …
we review this issue for plain error” as well. United
States v. Haverty, 76 M.J. 199, 208 (C.A.A.F. 2017).
“Military judges are required to instruct
members on the elements of each offense ….” United
States v. Davis, 73 M.J. 268, 272 (C.A.A.F. 2014)
(citations omitted). As noted earlier, Article 133,
UCMJ, contains just two elements: “[t]hat the accused
did or omitted to do certain acts; and [t]hat, under the
circumstances, these acts or omissions constituted
conduct unbecoming an officer and gentleman.” MCM
pt. IV, para. 59.b. The military judge adequately
instructed the panel on each specification of Article
133, UCMJ, when she read the panel the elements as
charged in each specification and provided the
following instruction both orally and in writing:
“Conduct unbecoming an officer and a
gentleman” means behavior in an official
capacity which, in dishonoring or
disgracing
the
individual
as
a
commissioned officer, seriously detracts
from his character as a gentleman, or
behavior in an unofficial or private
capacity which, in dishonoring or
disgracing the individual personally,
seriously detracts from his standing as a
commissioned officer. “Unbecoming
conduct” means misbehavior more
serious than slight, and of a material and

23a
pronounced character. It means conduct
morally unfitting and unworthy rather
than merely inappropriate or unsuitable
misbehavior which is more than opposed
to good taste or propriety. 9
Appellant contends these instructions were
inadequate because they make no mention of a mens
rea requirement. Presumably, the military judge
omitted anything specific about mens rea from her
instructions because Article 133, UCMJ, contains no
explicit mens rea requirement.
This case is strikingly similar to Caldwell, in
which we held that maltreatment under Article 93,
UCMJ, 10 U.S.C. § 893, was a military-specific
offense, and so the government need only “prove
general intent in order to obtain a conviction.” 75 M.J.
at 278. Like Article 133, UCMJ, Article 93, UCMJ,
does not explicitly specify a mens rea. MCM pt. IV,
para. 17.a. As we explained in Caldwell, although it is
true that “wrongdoing must be conscious to be
criminal,” 75 M.J. at 280 (internal quotation marks
omitted) (citation omitted), Congress is not required
to include an explicit mens rea in every article of the
UCMJ. Haverty, 76 M.J. at 203 (“[S]ilence in a
criminal statute regarding a mens rea requirement
does not necessarily prevent such a requirement from
being inferred.” (citation omitted)). When a statute is
silent as to mens rea, we “only read into the statute
The military judge’s definition mirrors the MCM’s
definition of conduct unbecoming. MCM pt. IV, para. 59.c.(2).
9

24a
that mens rea which is necessary to separate wrongful
conduct from innocent conduct.” Caldwell, 75 M.J. at
281 (internal quotation marks omitted) (citation
omitted). A statute’s silence can be indicative of a
general intent scienter. See United States v.
McDonald, 78 M.J. 376, 380 (C.A.A.F. 2019).
“[G]eneral intent merely requires [t]he intent to
perform [the actus reus] even though the actor does not
desire the consequences that result.” Haverty, 76 M.J.
at 207 (alterations in original) (internal quotation
marks omitted) (citation omitted). In the instant case,
a general intent mens rea would require only that
Appellant intended to commit the conduct alleged in
each specification—i.e., making inappropriate
comments and massaging his subordinate’s back. It
was up to the panel to determine whether Appellant’s
acts constituted conduct unbecoming. See United
States v. Miller, 37 M.J. 133, 138 (C.M.A. 1993)
(disagreeing with the appellant that the evidence was
insufficient to prove the conduct unbecoming element
and instead “hold[ing] that ‘a reasonable military
officer would have no doubt that the activities charged
in this case constituted conduct unbecoming an
officer.’ ” (quoting United States v. Frazier, 34 M.J.
194, 198 (C.M.A. 1992))).
Because “there is no scenario where [an officer]
who engages in the type of conduct” Appellant
engaged in “can be said to have engaged in innocent
conduct,” we infer a general intent scienter from
Congress’s silence. Caldwell, 75 M.J. at 281. “We base
our conclusion on the unique and long-recognized
importance” of an officer’s behavior “in the United

25a
States armed forces, and the deeply corrosive effect
that [indecorous behavior] can have on the military’s
paramount mission to defend our Nation.” Id.
Conduct unbecoming is a “military offense that
was specially created by Congress and prohibited
under its own separate article … reflecting” a high
level of congressional concern. Haverty, 76 M.J. at 205
n.10 (quoting Caldwell, 75 M.J. at 281, 285). “The
gravamen of [Article 133, UCMJ] is that the officer’s
conduct disgraces him personally or brings dishonor
to the military profession such as to affect his fitness
to command … so as to successfully complete the
military mission.” United States v. Schweitzer, 68 M.J.
133, 137 (C.A.A.F. 2009) (internal quotation marks
omitted) (citation omitted). Article 133, UCMJ, was
drafted in response to the fact that “it is the primary
business of armies and navies to fight or be ready to
fight wars should the occasion arise.” United States ex
rel. Toth v. Quarles, 350 U.S. 11, 17 (1955). By
criminalizing conduct unbecoming, Article 133,
UCMJ, is intended to help ensure a “disciplined and
obedient fighting force.” Parker v. Levy, 417 U.S. 733,
763 (1974) (Blackmun, J., with whom Burger, C.J.,
joined, concurring). These traits are so essential to
war fighting capabilities, that this article’s
foundations were established long before the Republic
itself. See Levy, 417 U.S. at 745 (explaining that
Article 133, UCMJ, originated in “the British
antecedents of our military law,” followed our nation’s
founders across the Atlantic, and was adopted in a
similar form by the Continental Congress in 1775).
Because officer behavior is so important, “criminal

26a
liability for [conduct unbecoming] does not depend on
whether conduct actually effects a harm upon [a]
victim,” but rather on whether the officer possessed
the general intent to act indecorously, dishonestly, or
indecently. Caldwell, 75 M.J. at 282; MCM pt. IV,
para. 59.c.(2) (“There are certain moral attributes
common to the ideal officer and the perfect gentleman,
a lack of which is indicated by acts of dishonesty,
unfair dealing, indecency, indecorum, lawlessness,
injustice, or cruelty.”). As Justice Blackmun wrote in
Parker v. Levy—soldiers are expected to know the
general difference between right and wrong. 417 U.S.
at 762–63 (Blackmun, J., with whom Burger, C.J.,
joined, concurring) (explaining that soldiers
understand “concepts of ‘right’ and ‘wrong’ ” and that
“[f]undamental concepts of right and wrong are the
same now” as they’ve always been); see also United
States v. Meakin, 78 M.J. 396, 404 (C.A.A.F. 2019)
(detailing the history and purpose of Article 133,
UCMJ, and noting that “it has historically been the
case that officers are held to a higher standard of
behavior”).
Conscious conduct that is unbecoming an
officer:
is in no sense lawful. This behavior
undermines the integrity of the
military’s command structure, and as we
have repeatedly recognized in the
context of dangerous speech in the armed
forces, [t]he hazardous aspect of license
in this area is that the damage done may

27a
not be recognized until the battle has
begun. We therefore conclude that
general intent sufficiently separates
lawful and unlawful behavior in this
context, and there is no basis to intuit a
mens rea beyond that which we have
traditionally required for Article [133],
UCMJ.
Caldwell, 75 M.J. at 282 (internal quotation marks
omitted) (citation omitted).
The military judge’s instructions adequately
explained the actus reus of Appellant’s crimes—
actions that could not, under the circumstances, have
been innocent—and informed the members that they
were to consider Appellant’s conduct “under the
circumstances.”
Under
our
precedent,
this
instructional language “can reasonably be understood
as requiring the panel members to determine whether
Appellant” knew that he was engaging in certain
conduct. Id. at 283. The military judge was under no
requirement to offer any further instruction specific to
general intent. As such, her instructions were not
erroneous, let alone plainly erroneous.
Judgment
The decision of the United States Air Force
Court of Criminal Appeals is affirmed.

28a

APPENDIX B
Not Reported in M.J., 2018 WL 3629893
Only the Westlaw citation is currently available.
UNITED STATES AIR FORCE
COURT OF CRIMINAL APPEALS
_________________
No. ACM 38836 (reh)
_________________
UNITED STATES
Appellee
v.
Paul D. VOORHEES
Major (O-4), U.S. Air Force, Appellant
________________
Appeal from the United States Air Force Trial
Judiciary
Decided 20 July 2018
_________________
Military Judge: Mark Rosenow.
Approved sentence: Dismissal. Sentence adjudged 5
April 2017 by GCM convened at Davis-Monthan Air
Force Base, Arizona.

29a

For Appellant: Major Patrick A Clary, USAF; Terri R
Zimmerman, Esquire; Jack B. Zimmerman, Esquire.
For Appellee: Lieutenant Colonel Joseph J. Kubler,
USAF; Major Tyler B. Musselman, USAF; Mary Ellen
Payne, Esquire.
Before HARDING, SPERANZA, and HUYGEN,
Appellate Military Judges.
Senior Judge HARDING delivered the opinion of the
court, in which Judges SPERANZA and HUYGEN
joined.
________________
This is an unpublished opinion and, as such,
does not serve as precedent under AFCCA Rule
of Practice and Procedure 18.4
________________
HARDING, Senior Judge:
In United States v. Voorhees, No. ACM 38836,
2016 CCA LEXIS 752 (A.F. Ct. Crim. App. 23 Nov.
2016) (unpub. op.), this court set aside a finding of
guilty for a charge and specification in violation of
Article 120, Uniform Code of Military Justice (UCMJ),
10 U.S.C. § 920, and dismissed the charge and
specification with prejudice. We also set aside the

30a
sentence. 1 We affirmed the remaining findings
comprised of five specifications of conduct unbecoming
an officer and a gentleman, in violation of Article 133,
UCMJ, 10 U.S.C. § 933, and authorized a sentence
rehearing on the affirmed findings. At the sentence
rehearing, the military judge sentenced Appellant to
a dismissal and a reprimand. The convening authority
approved only the dismissal.
Appellant raises four issues for our review: (1)
whether the military judge failed to grant meaningful
relief for violation of Article 13, UCMJ, 10 U.S.C. §
813; (2) whether Appellant is entitled to sentence
relief because the rights and privileges lost as a result
of his dismissed conviction for sexual assault have not
been restored; (3) whether Appellant’s waiver of
members for resentencing was involuntary because he
did not have information about a comment made by
the military judge three years prior to Appellant’s
forum selection; and (4) whether the sentence is
inappropriately severe. We find no prejudicial error
and affirm.
I. BACKGROUND
Appellant’s convictions for conduct unbecoming
an officer and a gentleman are rooted in the sexual
comments and actions he directed toward three
subordinate female Airmen with whom he deployed or
At the initial trial, officer members adjudged and the convening
authority approved a sentence to dismissal, forfeiture of all pay
and allowances, and confinement for three years.

1

31a
went on temporary duty assignments (TDY) on
different occasions. Appellant performed duty as an
EC-130 pilot, aircraft commander, and co-pilot during
several deployments to Afghanistan. While TDY,
deployed, and transiting to and from deployment,
Appellant used electronic communications to make a
variety of comments with sexual undertones to Senior
Airman (SrA) HB, Technical Sergeant (TSgt) BR, and
Captain (Capt) MQ. The comments included telling
SrA HB he wanted to take her back to his hotel room,
asking all three individuals if they cheated on their
husband or “significant other,” and asking two of them
about the under-garments they were wearing.
All five specifications state that Appellant
engaged in conduct of a sexual nature with military
members junior in rank to him and that the conduct
“un-der the circumstances, was unbecoming an officer
and a gentleman.” Specification 1 of Charge II states
Appellant asked SrA HB “inappropriate questions,” to
wit: “Have you ever cheated on your husband?”; “Have
you ever sent him pictures?”; and “Can I have pictures
of you?” or words to that effect. Specification 2 of
Charge II states Appellant massaged SrA HB’s back.
Specification 1 of the Additional Charge states
Appellant made an “inappropriate statement” to SrA
HB, to wit: “I would like to take you back to my room”
or words to that effect. Specification 3 of the
Additional
Charge
states
Appellant
sent
“unprofessional” texts to Capt MQ, to wit: “What I
want to say could end my career and marriage”; “Your
[sic] a very beautiful woman and I would love to be
close to you”; “What’s your definition of cheating?”;

32a
and “So if I asked what color panties you were
wearing?” or words to that effect. Specification 4 of the
Additional
Charge
states
Appellant
sent
“unprofessional”
texts
to
another
enlisted
subordinate, TSgt BR, to wit: “This is about to become
a game to see what else I can say that will slip by you”;
“Mind if I ask u [sic] a couple personal questions?”;
“What I want to say could end my career so I just want
to make sure you can keep what I say between us
because you seem really cool?”; “Oh really, what’s
under there?”; and “I’ve had a crush on you,” or words
to that effect.
II. DISCUSSION
A. Illegal Punishment Prior to the Sentence
Rehearing
On 29 December 2016, a little over a month
after the issuance of our original opinion, The Judge
Advocate General remanded Appellant’s case to the
convening authority for action consistent with our
decision. As of that date, Appellant remained confined
and had served nearly two years of the original
sentence. A continued confinement hearing was held
on 18 January 2017 and Appellant was released. 2
Appellant asserts three violations of Article 13,
UCMJ, occurred between 29 December 2016 and the
date of the sentence re-hearing: (1) that he remained
The continued confinement review officer determined that
continued confinement was not necessary and Appellant was
released. The Government did not oppose Appellant’s release.
2

33a
illegally confined after 29 December 2016 until his
release on 18 January 2017; (2) that his pay and
allowances were not fully restored after his release (18
January 2017 to 5 April 2017); and (3) that his duty
status improperly remained “prisoner” even after his
release. Appellant claims on appeal that the military
judge failed to grant meaningful relief for these
asserted violations of Article 13, UCMJ, and that we
should now do so by setting aside the dismissal. We
disagree.
Prior to the sentence rehearing, Appellant filed
a motion for confinement credit under Article 13,
UCMJ. Appellant requested five-for-one credit for
each day he was confined from 29 December 2016
until his release, and two-for-one credit for every day
after his release up to the date his new sentence was
announced. The military judge found no evidence of
“any intent to punish [Appellant] by keeping him
confined, without full pay, or designated in a
particular status as [the] case moved toward a
sentence rehearing.” His finding of non-punitive
intent was not clearly erroneous. Moreover, having
examined the record, we agree with the military judge
there was no punitive intent. The military judge
denied Appellant’s motion on the grounds raised by
Appellant, but provided modest relief on a separate
basis. The military judge concluded that the
Government had exceeded the deadlines in Rules for
Courts-Martial (R.C.M.) 305(h) and (i) and granted
Appellant 19 days of confinement credit, one for each
day after the 48-hour probable cause determination
was missed. As there was no adjudged confinement to

34a
apply this credit to, the military judge, consistent with
United States v. Zarbatany, 70 M.J. 169, 177 (C.A.A.F.
2011), then considered whether the awarded credit
should be applied against the adjudged sentence to a
dismissal and reprimand to ensure meaningful relief.
Taking into consideration the nature of the violation,
the harm suffered by Appellant, whether the relief
sought was disproportionate to the harm suffered by
Appellant, and in light of the offenses of which
Appellant was convicted, the military judge concluded
that “such relief would be disproportionate within the
context of this case.” 3
At the outset, we note that a lack of punitive
intent coupled with legitimate government objectives
inevitably lead us to deny Appellant’s requested relief
whether we analyze the claims of unlawful
punishment as potential violations of Article 13,
UCMJ, as framed by Appellant, or more generally as
a basis for sentence appropriateness relief under
Article 66(c), UCMJ, 10 U.S.C. § 866(c), for unlawful
post-trial punishment. As noted, we agree with the
military judge that there was no punitive intent and,
having conducted our own review, we find that the
Government reasonably pursued legitimate interests
even if its pursuit was at a pace slower than Appellant
would have desired.

The military judge further ruled that even if he had found an
Article 13, UCMJ, violation on the grounds argued by Appellant
and provided the requested relief of 259 days of confinement
credit, he still would have found a set aside of the dismissal to be
disproportionate relief in this case.
3

35a
Having considered what Appellant has alleged
as three distinct Article 13, UCMJ, violations, we
conclude we have jurisdiction over one of his claims.
We have jurisdiction to determine whether his posttrial confinement from 29 De-cember 2016 until his
release on 18 January 2017 resulted in more severe
punishment than what Appellant should have
experienced. As to Appellant’s claims that his pay and
allowances were not fully restored after his release
and that the update to his duty status was delayed,
we find no punitive intent and conclude that we do not
have jurisdiction over these collateral matters absent
such intent. United States v. Buford, 77 M.J. 562 (A.F.
Ct. Crim App. 2017). Assuming arguendo that we
have jurisdiction, we decline to exercise our authority
to grant relief for administrative issues that are
unrelated to the legality or appropriateness of the
court-martial sentence in this case.
As to Appellant’s claim he is due relief for the
time spent in confinement from 29 December 2016
until his release on 18 January 2017, the Government
contends Appellant is not entitled to his requested
relief for three distinct rea-sons. First, citing to United
States v. Kreutzer, 70 M.J. 444 (C.A.A.F. 2012), the
Government argues that the protections of Article 13,
UCMJ, and R.C.M. 305 did not apply to Appellant as
he was not being “held for trial.” Second, even if those
protections did apply, Appellant failed to meet his
burden of demonstrating his right to relief under
Article 13, UCMJ, or failed to show that the military
judge’s determination of lack of punitive intent was
clearly erroneous. Finally, the Government agrees

36a
with the military judge that the requested relief
“would be disproportionate within the context of this
case.”
Assuming arguendo a violation occurred when
Appellant remained con-fined from 29 December 2016
until his release on 18 January 2017, taking into
consideration the harm suffered by Appellant,
whether the relief sought was disproportionate to the
harm suffered by Appellant, and the offenses of which
Appellant was convicted, we conclude, as the military
judge did, that setting aside the dismissal would be
disproportionate.
B. Illegal Punishment
Rehearing

After the Sentence

Appellant also asserts he is entitled to relief
from this court because he has yet to have been
restored the rights and privileges lost as a result of his
sexual assault conviction, which we dismissed.
Specifically, Appellant argues that, because he has
not received either monies owed him from the period
of time from his release until placement on appellate
leave or back-pay and allowances covering the period
of confinement he served, this court should intervene
and grant sentencing relief by setting aside the
sentence of dismissal. Appellant asserts he has been
improperly denied his pay and this court has
jurisdiction under Article 66(c), UCMJ, to provide a
remedy. We disagree.

37a
We note that Appellant does not challenge the
legality of the approved sentence. Instead, he takes
issue with the decisions of military officials and a
delay in the restoration of his pay and implores us to
grant sentence appropriateness relief. As this dispute
over Appellant’s claim to back pay concerns a matter
not directly connected to the approved sentence, we
must first determine whether we have jurisdiction to
grant relief. We hold that we do not.
In United States v. Dodge, we determined an
appellant’s claim for back-pay was not within our
statutory jurisdiction. 60 M.J. 873 (A.F. Ct. Crim.
App. 2005), aff’d, 61 M.J. 288 (C.A.A.F. 2005) (mem.).
Notwithstanding our holding in Dodge, Appellant,
relying primarily on United States v. Gay, 75 M.J. 264
(C.A.A.F. 2016), contends this court has jurisdiction to
remedy his lack of pay because Article 66(c), UCMJ,
grants broad discretion to determine which part of a
sentence “should be approved.” In Buford, however,
we noted that Gay did not recognize unlimited
authority to grant sentencing relief and held that Article 66(c), UCMJ, does not grant this court
jurisdiction over a pay dispute ab-sent a nexus to the
approved sentence. Buford, 77 M.J. at 562.
Appellant further characterizes his claim as an
allegation of illegal post-trial punishment. However,
other than captioning this assignment of error as
“Illegal Post-Trial Punishment” and asserting that
this court has the authority to consider claims of
illegal post-trial punishment, Appellant does not
specifically claim and, more importantly, does not put

38a
forward any evidence of punitive intent. In Dodge, we
also considered and rejected the appellant’s claim that
lack of pay amounted to illegal post-trial punishment.
We found the appellant fell “far short of
demonstrating that a failure to restore the appellant
to a pay status was based on an intent to subject him
to illegal punishment” and that a bare claim of illegal
punishment, absent some evidence of intent to subject
an appellant to illegal post-trial punishment, did not
establish jurisdiction over collateral pay issues.
Dodge, 60 M.J. at 878. Appellant has similarly failed
to present any evidence to establish that any member
of his command or other military official has delayed
or denied him back-pay to increase the severity of his
sentence and impose illegal post-trial punishment.
Following our prior decisions in Dodge and Buford and
in light of Appellant’s failure to demonstrate punitive
intent, we thus conclude we do not have jurisdiction
over Appellant’s back-pay disputes. 4
C. The Comment
Appellant asserts his waiver of members was
not knowing and voluntary because full disclosure of
the relevant facts that might reasonably call into
question the military judge’s impartiality did not
occur. Specifically, Appellant claims his waiver of
Even if we had jurisdiction to grant sentence appropriateness
relief for this claim, we would decline to exercise our authority to
do so. Article 75, UCMJ, 10 U.S.C. § 875, applies once a judgment
as to the legality of the proceedings is final under Article 71,
UCMJ, 10 U.S.C. § 871, and Appellant has other available
avenues of relief such as the Court of Federal Claims.
4

39a
members was involuntary because the military judge
failed to inform Appellant of a joking comment the
judge made over three years prior to Appellant’s
forum selection about a favorable outcome for an
appellant in another case. In that case a conviction
was set aside on appeal. The military judge was a
senior trial counsel at the time and made the comment
to the military appellate defense counsel who obtained
the favorable result for his client. According to that
appellate defense counsel, he was asked by the
military judge and then-senior trial counsel how it felt
“helping a rapist go free?” or words to that effect. The
appellate defense counsel understood the comment
was intended as a joke even though he personally was
not amused. He was also not personally offended or
professionally concerned and did not believe that he
needed to officially report the matter. Instead, he
informally shared the comment with his fellow
appellate defense counsel to include Appellant’s
military appellate defense counsel for his original
Article 66, UCMJ, review.
1. Voluntary and Knowing Waiver of
Members
Whether an accused’s forum selection is
knowing, voluntary, and intelligent is reviewed de
novo. See United States v. St. Blanc, 70 M.J. 424, 427
(C.A.A.F. 2012). If an accused requests trial by
military judge alone, “the military judge should
inquire personally of the accused to ensure that the
accused’s waiver of the right to trial by members is
knowing and understanding.” R.C.M. 903(c),

40a
Discussion. The military judge must determine: (1)
whether the accused has consulted with defense
counsel, (2) whether the accused has been informed of
the identity of the military judge, and (3) whether the
accused has been notified of the right to trial by
members. Id at 428 (quoting R.C.M. 903(c)(2)(A)).
These requirements “ensure[,] that an accused
understands the nature of the choice before waiving
the right to trial by members.” Id. at 428. In
considering the scope of the voluntary and knowing
requirement, the CAAF held succinctly: “R.C.M. 903
does not require that a military judge inquire into any
non-enumerated factors or collateral matters that
may have influenced the accused’s election.” Id. at
430. Appellant now urges that a “non-enumerated
factor” and “collateral matter”—a non-disclosed
potential basis for judicial dis-qualification—should
be considered in determining whether his waiver of
the right to trial by members was voluntary and
knowing. Following St. Blanc, we limit our waiver
analysis to the requirements of R.C.M. 903 and
address the recusal issue injected by Appellant
separately. We decline Appellant’s invitation to
conflate the two.
The military judge advised Appellant of his
right to trial by members multiple times and granted
Appellant’s request to defer his election of forum until
after motions practice was complete. At Appellant’s
request, the military judge also provided Appellant an
overnight recess to consult with his counsel on his
forum choice. During motions practice, Appellant had
the opportunity to observe the judge’s demeanor and

41a
receive the judge’s rulings. At an earlier session, the
military judge announced his qualifications and
disclosed on the record his prior assignment as a
senior trial counsel and its overlap with the
assignments of both the trial counsel and Appellant’s
trial defense counsel. The military judge also
described steps he had taken upon his detail to
Appellant’s case to ensure that he had not been
involved in any capacity in Appellant’s case when it
was originally tried or on appeal. Appellant not only
knew the identity of the military judge when
Appellant waived his right to members, but also was
aware of the judge’s prior assignment as a senior trial
counsel and had observed the judge in court.
Appellant, after consultation with his counsel,
chose to be sentenced by military judge alone,
confirmed that at the time he made this selection he
knew the military judge’s identity, verified that his
choice was a voluntary one, and that he knew he was
giving up his right to trial by members. The
requirements of R.C.M. 903 were satisfied and thus
we conclude Appellant’s waiver of the right to
members was knowing and voluntary.
2. Recusal of the Military Judge
Although Appellant did not directly raise the
issue of recusal of the military judge, Appellant did
reference judicial disqualification in the context of the
waiver of the right to trial by members. We find no
abuse of discretion by the military judge for failure to

42a
recuse himself or for failing to disclose the comment
prior to Appellant’s waiver of his right to trial by
members.
We review a military judge’s refusal to recuse
himself for an abuse of discretion. United States v.
Butcher, 56 M.J. 87, 90 (C.A.A.F. 2001) (citation omitted). The standard for identifying the appearance of
bias of a military judge is an objective one: “[a]ny
conduct that would lead a reasonable man knowing all
the circumstances to the conclusion that the judge’s
impartiality might reason-ably be questioned.” Hasan
v. Gross, 71 M.J. 416, 418 (C.A.A.F. 2012) (alteration
in original) (quoting United States v. Kincheloe, 14
M.J. 40, 50 (C.M.A. 1982)). “There is a strong
presumption that a judge is impartial, and a party
seeking to demonstrate bias must overcome a high
hurdle, particularly when the alleged bias involves
actions taken in conjunction with judicial
proceedings.” United States v. Quintanilla, 56 M.J. 37,
44 (C.A.A.F. 2001). “[R]emarks, comments, or rulings
of a judge do not constitute bias or partiality, ‘unless
they display a deep-seated favoritism or antagonism
that would make fair judgment impossible.’” Id. at 44
(quoting Liteky v. United States, 510 U.S. 540, 555
(1994)). Further, the Supreme Court has made clear
that “expressions of impatience, dissatisfaction,
annoyance, and even anger, that are within the
bounds of what imperfect men and women, even
having being confirmed as federal judges, sometimes
display[]” do not establish bias or partiality. Liteky,
510 U.S. at 555–56. Of course, the comment at issue

43a
in this case was made when the military judge was a
prosecutor.
Given the totality of all the surrounding
circumstances attendant to the military judge’s
comment regarding another appellant’s case when the
military judge was a senior trial counsel years prior to
Appellant’s sentence rehearing, the comment is most
aptly characterized as a light-hearted attempt at
banter among professional peers and, given its benign
intent and remoteness in time, is hardly the stuff
recusals are made of. We find no actual or apparent
bias on the part of the military judge and no abuse of
discretion in the military judge’s decision to not recuse
himself or disclose the comment.
D. Sentence Severity
Finally, Appellant asserts that his sentence of
dismissal is inappropriately severe. We disagree.
We review sentence appropriateness de novo.
United States v. Lane, 64 M.J. 1, 2 (C.A.A.F. 2006). We
“may affirm only such findings of guilty and the
sentence or such part or amount of the sentence, as
[we] find[,] correct in law and fact and determine[ ], on
the basis of the entire record, should be approved.”
Article 66(c), UCMJ. “We assess sentence
appropriateness by considering the particular
appellant, the nature and seriousness of the
offense[s], the appellant’s record of service, and all
matters contained in the record of trial.” United States

44a
v. Anderson, 67 M.J. 703, 705 (A.F. Ct. Crim. App.
2009) (citations omitted). While we have great
discretion in determining whether a particular
sentence is appropriate, we are not authorized to
engage in exercises of clemency. United States v.
Nerad, 69 M.J. 138, 142–48 (C.A.A.F. 2010).
Appellant argues that dismissal is “an unduly
harsh punishment for the relatively minor conduct”
underlying his convictions when considered against
“the fact that [he] is a highly decorated combat
veteran with an established record of good character.”
We note, however, that Appellant’s misconduct was
not a limited one-time lapse of judgment, indiscretion,
or aberration. In each instance, Appellant was a
superior commissioned officer or senior aircrew
member to each of the three subordinates he subjected
to inappropriate comments and actions. In each
instance, he recognized that he was placing his
military career at risk and asked them not to report
him. In each instance, he negatively affected his
subordinates’ morale and attitude toward military
service, degraded his squadron’s operational
effectiveness, and disgraced himself as a military
officer. After giving individualized consideration to
Appellant, his record of service, the nature and
severity of the offenses, and all other matters
contained in the record of trial, we do not find
Appellant’s sentence to be inappropriately severe.

45a
III. CONCLUSION
The approved findings and sentence are correct in law
and fact, and no error materially prejudicial to the
substantial rights of Appellant occurred. Articles
59(a) and 66(c), UCMJ, 10 U.S.C. §§ 859(a), 866(c).
Accordingly, the
AFFIRMED.

findings

FOR THE COURT
/s/ Carol K. Joyce
CAROL K. JOYCE
Clerk of the Court

and

sentence

are

46a
APPENDIX C
Not Reported in M.J., 2016 WL 11410622
Only the Westlaw citation is currently available.
UNITED STATES AIR FORCE COURT OF
CRIMINAL APPEALS
________________________
UNITED STATES
v.
Major PAUL D. VOORHEES
United States Air Force
ACM 38836
23 November 2016
Sentence adjudged 9 January 2015 by GCM
convened at Davis-Monthan Air Force Base,
Arizona. Military Judge: Natalie D. Richardson
Approved Sentence: Dismissal, confinement for 3
years, and total forfeiture of all pay and
allowances.
Appellate Counsel for Appellant: Terri R.
Zimmermann, Esquire (argued); Jack B.

47a
Zimmerman, Esquire; and Major Jeffrey A.
Davis
Appellate Counsel for the United States: Captain
Tyler B. Musselman (argued); Colonel Katherine
E. Oler; Gerald R. Bruce, Esquire.
Before
J. BROWN, HARDING, and C. BROWN
Appellate Military Judges
OPINION OF THE COURT
This opinion is issued as an unpublished
opinion and, as such, does not serve as
precedent under AFCCA Rule of Practice and
Procedure 18.4
C. BROWN, Judge:
Contrary to his pleas, a panel of officers
convicted Appellant of one specification of sexual
assault by causing bodily harm, in violation of Article
120, UCMJ, 10 U.S.C. § 920, and five specifications of
conduct unbecoming of an officer and gentleman, in
violation of Article 133, UCMJ, 10 U.S.C. § 933. The
adjudged and approved sentence was a dismissal,
forfeiture of all pay and allowances, and confinement
for three years.

48a
Appellant raises seven assignments of error: (1)
The military judge abused her discretion by
admitting, over Defense objection, evidence covered by
Mil. R. Evid. 412 to explain why the victim did not
express a lack of consent—specifically, that she had
been repeatedly sexually assaulted when she was ten
years old; (2) his conviction for a violation of Article
120, UCMJ, is legally and factually insufficient; (3)
plain error occurred when the trial counsel engaged in
prosecutorial misconduct by injecting his personal
opinion as to the credibility of the Government’s case,
and making inflammatory and derogatory attacks on
Appellant and trial defense counsel during findings
argument; (4) the military judge abused her discretion
when she sua sponte instructed the members that, in
assessing the sufficiency of the evidence, they could
not presume that evidence the Government failed to
present must be detrimental to the Government’s
case; (5) the specifications alleging violations of
Article 133, UCMJ, fail to state an offense because
they lack words of criminality; (6) his convictions for
five specifications in violation of Article 133, UCMJ,
are legally and factually insufficient; and (7) plain
error occurred when the Government introduced
irrelevant, speculative, and inflammatory evidence at
sentencing. 1
1 Appellant did not raise as error the presumptive unreasonable
delay for the 143-day period between the conclusion of trial and
the convening authority’s action. Under United States v. Moreno,
courts apply a presumption of unreasonable delay “where the
action of the convening authority is not taken within 120 days of
the completion of trial.” 63 M.J. 129, 142 (C.A.A.F. 2006).
Appellant did not assert prejudice and we independently find he
suffered no prejudice that would authorize Moreno relief.

49a
We conclude the evidence underlying
Appellant’s Article 120, UCMJ, conviction is factually
insufficient. We thus set aside this finding of guilt and
the sentence. This action moots the first and seventh
assignments of error. 2 Finding no further error, we
affirm the remaining convictions.

Furthermore, having considered the totality of the circumstances
and the entire record, we find the post-trial delay in this case is
not so egregious as to adversely affect the public’s perception of
fairness and integrity of the military justice system. See Toohey,
63 M.J. at 362. Similarly, we decline to grant relief under United
States v. Tardif, 57 M.J. 219, 223–24 (C.A.A.F. 2002). Under
Article 66(c), UCMJ, 10 U.S.C. § 866(c), this court is empowered
“to grant relief for excessive post-trial delay without a showing of
‘actual prejudice’ within the meaning of Article 59(a), if it deems
relief appropriate under the circumstances.” Id. at 224 (quoting
United States v. Collazo, 53 M.J. 721, 727 (Army Ct. Crim. App.
2000)). In United States v. Toohey, 63 M.J. 353, 362 (C.A.A.F.
2006), our superior court held that a service court may grant
relief even when the delay was not “most extraordinary.” The
court held, “The essential inquiry remains appropriateness in
light of all circumstances, and no single predicate criteria of ‘most
extraordinary’ should be erected to foreclose application of
Article 66(c), UCMJ, consideration or relief.” Id. This court set
out a non-exhaustive list of factors we consider when evaluating
the appropriateness of Tardif relief in United States v. Gay, 74
M.J. 736, 744 (A.F. Ct. Crim. App. 2015), aff’d, 75 M.J. 264
(C.A.A.F. 2016). On the whole, we find the presumptively
unreasonable delay does not merit sentencing relief in this case.
2 With regards to Appellant’s now-mooted first assignment of
error, we recognize that Mil. R. Evid. 412 is arguably ambiguous
regarding whether an accused can invoke the rule to prohibit a
willing victim from testifying about otherwise relevant sexual
abuse history. Nothing prevents the President from clarifying
Mil. R. Evid. 412 through amendment. See Major Shane R.
Reeves, Time to Fine-Tune Military Rule of Evidence 412, 196
Mil. L. Rev. 47 (Summer 2008).

50a
Background
Appellant’s convictions for conduct unbecoming
are rooted in the sexual comments and actions he
directed toward subordinate female Airmen with
whom he deployed or went on temporary duty
assignments (TDY) on different occasions. Appellant
is an EC-130 pilot who performed duty as an aircraft
commander and a co-pilot during several deployments
to Afghanistan. While TDY, deployed, and transiting
to and from deployment, Appellant used electronic
communications to make a variety of comments with
sexual undertones to a Senior Airman (SrA), a
Technical Sergeant (TSgt), and a First Lieutenant (1st
Lt). The comments included telling the Senior Airman
he wanted to take her back to his hotel room, asking
all three individuals if they cheated on their husband
or significant other, and asking two of them about the
undergarments they were wearing.
The alleged sexual assault took place as
Appellant and SrA HB were returning from a
deployment to Afghanistan. During the deployment,
Appellant served as the aircraft commander for an
eight-member aircrew where SrA HB was the only
female and the junior member of the crew. While in
transit to their home station, the crew stopped in
Baltimore, Maryland. Appellant arranged for a friend
to bring food and alcohol to their hotel, and the crew
ate, drank, and socialized together. SrA HB returned
to her hotel room and called her husband. Appellant
sent SrA HB a text message asking if he could come to
her room to talk. She refused, telling him “it was not

51a
a good idea.” Appellant persisted, calling SrA HB and
telling her that he would not get this opportunity
again. When she relented, Appellant knocked on her
door, and she let him into her room.
After entering her hotel room, Appellant
engaged in conversation with SrA HB, and eventually
moved to the bed where SrA HB was lying down and
began to rub her hand while he talked to her.
Appellant began massaging SrA HB’s back and
eventually took off her shirt and bra while continuing
the massage. The massage led to sexual intercourse.
After this first sexual encounter, Appellant and SrA
HB lay together in bed and conversed for a period of
20 to 30 minutes. Eventually, Appellant performed
oral sex on SrA HB and they engaged in vaginal
intercourse a second time. Appellant and SrA HB lay
on the bed for a few minutes until receiving a message
from another crew member inviting them to
breakfast. Appellant was in SrA HB’s room for
approximately two hours.
SrA HB reported the incident to her husband
approximately seven months later, initially telling
him she had cheated on him. SrA HB then reported
the incident to the Air Force Office of Special
Investigations (AFOSI). AFOSI asked SrA HB to
conduct a recorded phone call with Appellant. During
the call, SrA HB told Appellant she “didn’t want
[sexual intercourse] to happen” and Appellant asked
her why she “didn’t say something.” She also asked
him why he “thought it was OK,” and Appellant
replied, “[he] didn’t.”

52a

Additional facts necessary to resolve the
assignments of error are included below.
Legal and Factual Sufficiency of Article 120
Specification
We review the factual sufficiency of evidence de
Article 66(c), UCMJ, 10 U.S.C. § 866(c); United
States v. Washington, 57 M.J. 394, 399 (C.A.A.F.
2002); see United States v. Cole, 31 M.J. 270, 271
(C.M.A. 1990). Our assessment of factual sufficiency
is limited to the evidence presented at trial. United
States v. Dykes, 38 M.J. 270, 272 (C.M.A. 1993). The
test for factual sufficiency is “whether, after weighing
the evidence in the record of trial and making
allowances for not having personally observed the
witnesses, [this court is] convinced of [Appellant]’s
guilt beyond a reasonable doubt.” Turner, 25 M.J. at
325; see United States v. Reed, 54 M.J. 37, 41 (C.A.A.F.
2000).
novo. 3

The Specification of Charge I alleges Appellant
committed sexual assault by causing bodily harm in
violation of Article 120, UCMJ. To sustain a conviction
for sexual assault, the prosecution was required to
prove: (1) That Appellant committed a sexual act upon
SrA HB, to wit: penetrating the vulva of SrA HB with
his penis; and (2) That Appellant did so by causing
bodily harm to SrA HB to wit: penetrating her vulva
Because we find the evidence factually insufficient, we do not
address legal sufficiency.
3

53a
with his penis with an intent to gratify his own sexual
desire. See Department of the Army Pamphlet 27-9,
Military Judges’ Benchbook, 3-45-14c. (10 September
2014).
The Government had the burden to prove
beyond a reasonable doubt that SrA HB did not
consent to the sexual act and the military judge
provided the following definitions at trial regarding
consent:
Consent means a freely given agreement
to the conduct at issue by a competent
person. An expression of lack of consent
through words or conduct means there is
no consent. Lack of verbal or physical
resistance or submission resulting from
the use of force, threat of force, or placing
another person in fear does not
constitute consent. A current or previous
dating or social or sexual relationship by
itself or the manner of dress of the person
involved with the accused in the conduct
at issue shall not constitute consent.
Lack of consent may be inferred based on
the circumstances. All the surrounding
circumstances are to be considered in
determining whether a person gave
consent or whether a person did not
resist or ceased to resist only because of
another person’s actions.

54a
Similarly, the Government was required to
prove beyond a reasonable doubt that Appellant did
not have a reasonable mistake of fact defense as to
whether SrA HB consented to the sexual acts. As part
of the instruction concerning the defense of mistake of
fact, the military judge stated:
Mistake of fact as to consent means the
accused held, as a result of ignorance or
mistake, an incorrect belief that the
other person consented to the sexual
conduct as alleged. The ignorance or
mistake must have existed in the mind of
the accused and must have been
reasonable under all circumstances. To
be reasonable, the ignorance or mistake
must have been based on information, or
lack of it, that would indicate to a
reasonable person that the other person
consented. Additionally, ignorance or
mistake cannot be based on the negligent
failure to discover the true facts.
Negligence is the absence of due care.
Due care is what a reasonably careful
person would do under the same or
similar circumstances.
The defense of mistake of fact as to consent has
both subjective and objective elements. United States
v. Paige, 67 M.J. 442, 455 (C.A.A.F. 2009) (“[T]he
mistake of fact defense requires a subjective, as well
as objective, belief that [the victim] consented to the
sexual intercourse . . . .”); United States v. Jones, 49

55a
M.J. 85 (C.A.A.F. 1998) (“[A] mistake-of-fact defense
to a charge of rape requires that a mistake as to
consent be both honest and reasonable.”) (quoting
United States v. Willis, 41 M.J. 435, 438 (C.A.A.F.
1995)); Rule for Courts-Martial 916(j)(1) (“[T]he
ignorance or mistake must have existed in the mind of
the accused and must have been reasonable under all
the circumstances.”).
The bulk of the evidence supporting the sexual
assault conviction came from the testimony of SrA
HB. The Government also introduced into evidence a
recorded pretext phone call made by SrA HB to
Appellant and text messages between the parties. SrA
HB testified she did not consent to sexual intercourse
on either occasion. She stated Appellant initially
starting massaging her hand and then straddled her
on the bed, massaging her back underneath her shirt.
SrA HB stated she lay face down on the bed and did
not move as Appellant removed her shirt and bra. On
cross-examination, she asserted she may have moved
when Appellant took off her shirt and bra, but it was
not to assist Appellant in any way. Prior to the initial
sexual intercourse, SrA HB told Appellant, “[They]
couldn’t do this,” because they “were both married.”
When Appellant was removing her shorts, SrA HB
pushed her hips forward towards the bed but did not
say anything to him. During the initial sexual
encounter, SrA HB testified she moaned both in
pleasure and in pain. Appellant ejaculated on her back
and there was a period of 20 to 30 minutes where they
lay in bed and conversed. They later engaged in
consensual kissing. Appellant kissed SrA HB’s

56a
breasts and then performed oral sex on SrA HB by
licking her vagina. Appellant and SrA HB had sexual
intercourse again with Appellant ejaculating on her
stomach.
During her direct examination, SrA HB related
she had been repeatedly raped by a foster parent-type
figure when she was 10 years old. She further testified
that she did not scream or leave the room before or
during the sexual encounters with Appellant because
she felt like she was back in her childhood situation
and she “knew what was going to happen and [she]
just wanted it to be over with.” She stated she did not
cry out or call 911 while Appellant was straddling her
and massaging her back because she “just wanted it
over with.” She explained she engaged in the
consensual kissing between the first and second
sexual intercourse because when she was abused
during her childhood if she “showed interest or didn’t
fight . . . it would just be quicker. It would just be over
with and that’s what [she] wanted to happen.”
In this case, factual sufficiency turns on
whether Appellant had a reasonable belief that SrA
HB consented to the sexual acts. SrA HB testified that
she talked with Appellant about her childhood and
shared personal issues with him over Facebook while
they were deployed. But she did not testify to what, if
anything, she told Appellant about her childhood
sexual abuse or her learned defense mechanisms of
feigning interest or not resisting. We find these brief
and fairly broad snippets of testimony concerning
Appellant’s knowledge of SrA HB’s childhood

57a
insufficient to overcome a reasonable mistake of fact
defense. SrA HB stated she did not say anything to
Appellant to indicate she did not want to have sex
with him and the only words in the record putting
Appellant on notice that she was not a willing
participant in the sexual acts were SrA HB saying
they “couldn’t do this” because they “were both
married,” while Appellant was massaging her back.
SrA HB did testify she moved her hips towards the
bed when Appellant initially tried to take off her
shorts, but that appears to be the only outward
physical behavior which might have put Appellant on
notice of her lack of consent to the sexual intercourse.
The testimony that SrA HB “showed interest” by
consensually kissing Appellant to get the encounter
“over with” more quickly coupled with SrA HB’s
testimony that her body betrayed her and she moaned
in pleasure during both instances of sexual
intercourse support Appellant’s assertion that he was
reasonable in believing SrA HB was a willing
participant to the sexual intercourse.
Having reviewed the entire record of trial and
making allowances for not personally observing the
witnesses, we are not convinced of Appellant’s guilt
beyond a reasonable doubt. We find that the
Government failed to prove that the defense of
mistake of fact as to consent did not exist. We thus set
aside and dismiss with prejudice the Specification of
Charge I.

58a
Failure of Article 133 Specifications to State an
Offense
Appellant asserts that the five specifications of
conduct unbecoming an officer and a gentleman of
which he was convicted fail to state an offense.
Whether a specification states an offense is a
question of law that we review de novo. United States
v. Ballan, 71 M.J. 28, 33 (C.A.A.F. 2012).
Specifications that are first challenged after trial are
viewed with greater tolerance than those challenged
at trial. United States v. Watkins, 21 M.J. 208, 209
(C.M.A. 1986). “Where defects in a specification are
raised for the first time on appeal, dismissal of the
affected charges or specifications will depend on
whether there is plain error . . . .” United States v.
Humphries, 71 M.J. 209, 213 (C.A.A.F. 2012).
“Appellant has the burden of demonstrating that: (1)
there was error; (2) the error was plain or obvious; and
(3) the error materially prejudiced a substantial right
of the accused.” United States v. Girouard, 70 M.J. 5,
11 (C.A.A.F. 2011).
The military is a notice pleading
jurisdiction.
Charge(s)
and
specification(s) will be found sufficient if
they, ‘first, contain the elements of the
offense charged and fairly inform a
defendant of the charge against which he
must defend, and, second, enable him to

59a
plead an acquittal or conviction in bar of
future prosecutions for the same offense.’
United States v. Fosler, 70 M.J. 225, 229
(C.A.A.F. 2011) (quoting Hamling v. United
States, 418 U.S. 87, 117 (1974)) (citation
omitted).
All five specifications, as charged, allege
Appellant engaged in conduct of a sexual nature with
military members junior in rank to him and that the
conduct “under the circumstances, was unbecoming
an officer and a gentleman.” Specification 1 of Charge
II alleges that Appellant asked SrA HB “inappropriate
questions,” to wit: “Have you ever cheated on your
husband?”; “Have you ever sent him pictures?”; and
“Can I have pictures of you?” Specification 2 alleges
Appellant massaged SrA HB’s back. Specification 1 of
the Additional Charge alleges Appellant made an
“inappropriate statement” to SrA HB, to wit: “I would
like to take you back to my room,” or words to that
effect. Specification 3 of the Additional Charge alleges
Appellant sent “unprofessional” texts to Captain MQ,
to wit: “What I want to say could end my career and
marriage”; “Your (sic) a very beautiful woman and I
would love to be close to you”; “What’s your definition
of cheating?”; and “So if I asked what color panties you
were wearing?” or words to that effect. Specification 4
of the Additional Charge alleges “unprofessional”
texts from Appellant to another enlisted subordinate,
TSgt BR, to wit: “This is about to become a game to
see what else I can say that will slip by you”; “Mind if
I ask u (sic) a couple personal questions?”; “What I

60a
want to say could end my career so I just want to make
sure you can keep what I say between us because you
seem really cool?”; “Oh really, what’s under there?”;
and “I’ve had a crush on you,” or words to that effect.
The elements of conduct unbecoming an officer
and a gentleman are as follows: “(1) That the accused
did or omitted to do certain acts; and (2) That, under
the circumstances, these acts or omissions constituted
conduct unbecoming an officer and gentleman.”
Manual for Courts-Martial, United States (MCM), pt.
IV, ¶ 59(b). Regarding conduct captured under this
Article, the Manual notes:
Conduct violative of this article is action
or behavior in an official capacity which,
in dishonoring or disgracing the person
as an officer, seriously compromises the
officer’s character as a gentleman, or
action or behavior in an unofficial or
private capacity which, in dishonoring or
disgracing
the
officer personally,
seriously compromises the person’s
standing as an officer. There are certain
moral attributes common to the ideal
officer and the perfect gentleman, a lack
of which is indicated by acts of
dishonesty, unfair dealing, indecency,
indecorum, lawlessness, injustice, or
cruelty.
MCM, pt IV, ¶ 59.c.(2) (2012 ed.).

61a

Concerning the nature of the conduct for this
offense, our superior court has held:
An officer’s conduct need not violate
other provisions of the UCMJ or even be
otherwise criminal to violate Article 133,
UCMJ. The gravamen of the offense is
that the officer’s conduct disgraces him
personally or brings dishonor to the
military profession such as to affect his
fitness to command the obedience of his
subordinates so as to successfully
complete the military mission. Clearly,
then, the appropriate standard for
assessing criminality under Article 133
is whether the conduct or act charged is
dishonorable and compromising as
hereinbefore
spelled
out—this
notwithstanding whether or not the act
otherwise amounts to a crime.
United States v. Schweitzer, 68 M.J. 133, 137
(C.A.A.F. 2009) (quotation marks and citations
omitted).
As Appellant did not object at trial, we liberally
construe the specifications and only grant relief for
plain error. But Appellant cannot show error, let alone
plain error. All five specifications contain the
elements of the offense of conduct unbecoming an
officer and a gentleman. They serve to inform

62a
Appellant of the specific acts against which he must
defend. Finally, they are charged with sufficient
specificity to prevent future prosecutions for the same
offenses. This is all that is required. Fosler, 70 M.J. at
229.
Legal and Factual Sufficiency of Article 133
Specifications
Appellant asserts the evidence underlying his
convictions for violating Article 133 is legally and
factually insufficient because the language and
conduct alleged do meet the definition of conduct
unbecoming an officer and a gentleman. We disagree.
Appellant asserts his texts were simply “innocuous
chatter,” and argues that while the “flirtatious” and
“inappropriate” comments reflect poorly upon
Appellant as a husband, they had no serious effect on
the public’s perception of the Air Force or the military
in general. Appellant asks us to follow the rationale in
United States v. Brown, 55 M.J. 375 (C.A.A.F. 2001),
to set aside the specifications. We are not persuaded
and instead rely on our superior court’s holding in
United States v. Lofton, 69 M.J. 386 (C.A.A.F. 2011).
In Lofton, our superior court found legally
sufficient a specification alleging an officer made
unsolicited sexual comments to a Chief Master
Sergeant. The court noted, “Appellant’s words cannot
be analyzed in a vacuum. Unlike the appellant in
Brown, Colonel Lofton was not dealing with fellow
officers . . . . [T]he Government established that

63a
Appellant . . . made these comments as a means to
further his attempt to establish a personal and
unprofessional relationship with CMSgt RM, an
enlisted woman.” Id. at 390.
Appellant focuses our attention to the
testimony of witnesses who stated they were a “good
crew” and they “bragged about being one of the best,”
further stating there was no evidence Appellant was
unable to accomplish the mission. While Appellant
asserts his conduct does not rise to the same level of
“frequency and intrusiveness” as the conduct in
Lofton, we are not persuaded.
Appellant’s misconduct negatively impacted his
subordinates’ perception of him and their desire to
serve under his command. SrA HB testified that
Appellant’s comments made her feel uneasy. 1st Lt
MQ asked to be removed from the pending deployment
where Appellant was to be her aircraft commander.
She further testified that the text messages impacted
her view of Appellant as a gentleman by making her
feel disgusted, and she lost all sense of respect for him.
TSgt BR testified that Appellant’s messages caused
her to not look forward to working for Appellant
during the deployment. TSgt BR further testified she
did not think of Appellant as a gentleman and that
Appellant’s actions, including his texts and “vulgar”
and “lewd” sexual comments he made while deployed
caused her to seek a staff job so she would not have to
deploy again.

64a
Despite Appellant’s assertion that his actions
were a mere failure of good judgment, we have no
doubt they disgraced him personally and as an officer
such that they compromised his fitness to command
and to successfully complete the military mission. The
charged conduct was of a sexual nature and occurred
with lower ranking military members. The alleged
conduct occurred while Appellant was deployed,
transiting to or returning from deployment, or TDY
with junior members of his unit. For three
specifications, Appellant was the senior officer and
aircraft commander or co-pilot of the enlisted
members with whom it is alleged he committed the
conduct unbecoming. For the specification involving
the junior officer, Appellant was soliciting her to cheat
on his wife with him. At the time, Appellant was
scheduled to deploy with her in the near future where
he would perform duty as the aircraft commander or
co-pilot of her crew. The remaining specification
alleges conduct where Appellant told a married
Airman from his unit whom he would later command
at a deployed location that he wanted to take her back
to his hotel room. We find that there is sufficient
evidence to convince a rational trier of fact beyond a
reasonable doubt that the Appellant is guilty of all five
specifications of conduct unbecoming an officer and a
gentlemen, and that the evidence is, therefore, legally
sufficient. Furthermore, after our independent review
of the record and making allowances for not
personally observing the witnesses, we are ourselves
convinced beyond a reasonable doubt.

65a
Improper Argument by Trial Counsel
Appellant next asserts trial counsel engaged in
prosecutorial misconduct during closing argument by
injecting his personal opinion as to the credibility of
the Government’s case and making inflammatory and
derogatory attacks on Appellant and trial defense
counsel.
Improper argument is a question of law that is
reviewed de novo. United States v. Pope, 69 M.J. 328,
334 (C.A.A.F. 2011). Because there was no objection
at trial, we review the propriety of trial counsel’s
argument for plain error. United States v. Halpin, 71
M.J. 477, 479 (C.A.A.F. 2013). To prevail under a plain
error analysis, Appellant must show “(1) there was an
error; (2) it was plain or obvious; and (3) the error
materially prejudiced a substantial right.” United
States v. Erickson, 65 M.J. 221, 223 (C.A.A.F. 2007)
(quoting United States v. Kho, 54 M.J. 63, 65 (C.A.A.F.
2000)).
Appellant cites 14 different instances where he
believes trial counsel made improper argument, none
of which he objected to at trial. Many of the alleged
improper arguments are directly related to the sexual
assault charge which we have found factually
insufficient; we decline to address these as they are
mooted by our setting aside of that charge. Rather
than address each point individually, we will examine
the arguments in terms of the prosecutorial
misconduct alleged.

66a

Appellant alleges trial counsel impermissibly
attacked him by referring to Appellant as a “perverted
individual,” a “pig,” a “narcissist,” a “chauvinist,” a
“joke of an officer,” and referring to his conduct as
“disgusting.” It is well established that while a
prosecutor “may strike hard blows, he is not at liberty
to strike foul ones. It is as much his duty to refrain
from improper methods calculated to produce a
wrongful conviction as it is to use every legitimate
means to bring about a just one.” United States v.
Frey, 73 M.J. 246, 248 (C.A.A.F. 2014) (quoting Berger
v. United States, 295 U.S. 78, 88 (1935)). Trial counsel
is entitled “to argue the evidence of record, as well as
all reasonable inferences fairly derived from such
evidence.” United States v. Baer, 53 M.J. 235 (C.A.A.F.
2000). Despite our setting aside the sexual assault
conviction, the evidence remains that Appellant, at
minimum, as the senior officer of a deployed aircrew
had sexual intercourse with the most junior enlisted
member of his aircrew while re-deploying. Similarly,
the alleged conduct unbecoming took place between a
commissioned officer and either enlisted members or
a junior officer within his unit. Appellant’s conduct in
having sexual intercourse with SrA HB while redeploying and seeking to engage in personal
relationships with his subordinates and making
inappropriate comments with sexual undertones to
them was at the center of the evidence at trial. Thus,
while trial counsel’s use of the above adjectives to

67a
describe Appellant was perhaps ill-advised, 4 they do
not rise to the level of plain error.
Appellant further asserts trial counsel
inappropriately expressed his personal opinion
regarding the Government’s evidence by bolstering
witnesses. Appellant claims this occurred when trial
counsel called TSgt BR an outstanding Airman and
stated that various witnesses, including SrA HB
testified truthfully. As our superior court stated in
Baer, 53 M.J. at 238, “our inquiry should not be on
words in isolation, but on the argument as ‘viewed in
context.’” Id. We find trial counsel’s argument did not
personally vouch for the witnesses, but amounted to
fair comment on the evidence presented to include
commenting on the witnesses’ perception of
Appellant’s observed behavior and also arguing that
Government witnesses, including the sole witness to
the sexual assault, were credible.
Appellant alleges trial counsel made multiple
arguments impermissibly commenting on Appellant’s
right to not testify. A trial counsel “may not comment
directly, indirectly, or by innuendo, on the fact that an
accused did not testify in his defense.” United States
v. Carter, 61 M.J. 30, 33 (C.A.A.F. 2005) (quoting
United States v. Mobley, 31 M.J. 273, 279 (C.M.A.
1990)). However, “it is permissible for trial counsel to
comment on the Defense’s failure to refute
See United States v. Fletcher, 62 M.J. 175, 182 (C.A.A.F. 2005)
(“Disparaging comments are also improper when they are
directed to the defendant himself.”)
4

68a
Government evidence or to support its own claims.”
United States v. Paige, 67 M.J. 442, 448 (C.A.A.F. 26
2009). A violation occurs “only if either the defendant
alone has the information to contradict the
Government evidence referred to or the [members]
‘naturally and necessarily’ would interpret the
summation as a comment on the failure of the accused
to testify.” Id. (quoting Carter, 61 M.J. at 33) (quoting
United States v. Coven, 662 F.2d 162, 171 (2d Cir.
1981) (alteration in original).
In Carter, our superior court found that trial
counsel’s reference to the words “uncontroverted” and
“uncontradicted” 11 times during argument made
Appellant’s decision not to testify a “centerpiece of the
closing argument.” Carter, 61 M.J. at 34. The Court
also noted that even after the military judge
instructed the members that they could not draw any
adverse inference from the appellant’s failure to
testify, trial counsel continued that type of argument.
Id. The court found the comments “were not isolated
or a ‘slip of the tongue,’” and cited to United States v.
Moore, 917 F.2d 215, 225 (6th Cir. 1990) to propose
the isolated nature of comments by a prosecutor
should be taken into account. Carter, 61 M.J. at 34.
Here, trial counsel’s closing and rebuttal
argument contained three instances where testimony
was labeled “uncontradicted.” Two of the three
instances stem from testimony where multiple
individuals were present. The final comment occurred
when trial counsel stated it was “uncontradicted” that
Appellant had told SrA HB she should “be more

69a
enthusiastic” with her husband just prior to leaving
SrA HB’s hotel room. As SrA HB was the only person
who heard Appellant’s statement, this comment is
information that only Appellant could contradict. Our
superior court has found that the Government “is
permitted to make ‘a fair response’ to claims made by
the Defense, even when a Fifth Amendment right is at
stake.” United States v. Gilley, 56 M.J. 113, 120
(C.A.A.F. 2001) (quoting United States v. Robinson,
485 U.S. 25, 32 (1988)). Trial defense counsel
appeared to invite this reply through his opening
statement where he described Appellant’s version of
the sexual encounter, highlighting Appellant’s “eighthour statement” to AFOSI. Trial defense counsel also
did not challenge SrA HB on the veracity of this
statement despite having the opportunity to do so on
cross-examination. That said, even if this argument
was not an invited response or proper comment on SrA
HB’s credibility, we do not believe trial counsel was
impermissibly drawing the members’ attention to
Appellant’s right not to testify. We further find trial
counsel’s use of the term “uncontradicted” in this
instance did not prejudice Appellant, particularly as
we are analyzing this only as it relates to the
convictions for conduct unbecoming an officer and a
gentleman.
Military Judge’s Instruction during Closing
Argument
Appellant asserts the military judge abused her
discretion when she sua sponte instructed the panel
concerning evidence the Government did not present.

70a
During closing argument, trial defense counsel argued
that evidence the Government had not presented to
the members was unfavorable to the Government’s
case. Specifically, trial defense counsel argued:
[Y]ou can assume, knowing that these
are skilled prosecutors, if they had 16
crew members or 15 crew members that
could come in here and say this behavior
was completely over the top, then we
would have heard from, probably from 15
or 16 witnesses. They’ve picked the ones
they had and that really goes to show
that a majority of the people probably
don’t back up their side of the case[.]
(emphasis added).
Trial defense counsel also argued:
What about OSI agents? You—this is a
lengthy investigation. You—they didn’t
hear from a single professional
investigator; who interviewed the
witnesses, who dealt with the—that
investigated this case. We know OSI
investigates all felonies, and this is a
felony-level case. If they had evidence
that was helpful to the Government’s
case, you would have heard from an OSI
investigator. (emphasis added).

71a
Trial defense counsel also questioned why the
Government did not call SrA HB’s husband.
What did she really tell her husband?
That’s another story. That’s another
question you have. And it’s one of those—
and I said they cherry-picked the
evidence and they showed you about 30
percent of it. Why wouldn’t you—
wouldn’t it be a relevant witness to talk
to, the first person she ever told this
story to, for you to make your decision?
After trial defense counsel had finished his
argument, but before the trial counsel provided a
rebuttal argument, the military judge sua sponte
instructed the members as follows:
Before I allow Government to provide a
rebuttal argument, I need to remind you
of some of the instructions that I gave.
That—I don’t believe the argument you
heard was consistent with all of my
instructions. There’s a couple of things I
really want to foot stomp and point out to
you.
…
[I] remind you that only matters properly
before the court as a whole should be
considered. You may not assume or

72a
presume that because the Government
did not present some evidence that that
evidence must have been detrimental to
its case. You cannot presume or assume
that that evidence that was not
presented would even be legally
admissible in this trial. However, the
Government does have the burden of
proof. So, it is the Government’s burden,
and the Government’s alone, to present
you with evidence—legal and competent
evidence, that proves each element of
each offense beyond a reasonable doubt
before you can find the accused guilty of
any element—or of any offense.
After the Government’s rebuttal argument, the
trial defense counsel objected to this instruction,
arguing that the absence of evidence could raise a
reasonable doubt as to guilt. The military judge stated
that trial defense counsel “crossed the line” because
he wanted the members to “presume that the
Government didn’t offer it because it would be
detrimental to their case.” The military judge noted
that one portion of defense counsel’s argument
referenced inadmissible hearsay.
We review a military judge’s decision to provide
an instruction for an abuse of discretion. United States
v. Barnett, 71 M.J. 248, 249 (C.A.A.F. 2012). We
review the propriety of the instructions given by a
military judge de novo. United States v. Quintanilla,
56 M.J. 37, 83 (C.A.A.F. 2001).

73a

A negative inference drawn from missing
evidence has its origin in the nineteenth century case
of United States v. Graves, 150 U.S. 118, 120 (1893).
There, the United States Supreme Court reversed a
conviction where the prosecution argued for the jury
to draw a negative inference against the accused from
the lack of evidence from the accused’s wife. Id.
Despite reversing the conviction, the Court stated,
“The rule even in criminal cases is that if a party has
it peculiarly within his power to produce witnesses
whose testimony would elucidate the transaction, the
fact that he does not do it creates the presumption
that the testimony, if produced, would be
unfavorable.” Id. at 121.
This missing-witness rule has been applied in
courts-martial. In United States v. Swoape, 21 M.J.
414, 415 (C.M.A. 1986), the court held that the
military judge erred in failing to instruct the members
that “no inference could be drawn from the absence of
. . . a witness in this case.” Like Graves, Swoape
involved a prosecutor’s comments about the lack of
evidence presented by the accused. In United States v.
Taylor, 47 M.J. 322, 324 (C.A.A.F. 1997), the court
stated, “This Court generally has not permitted a trial
counsel to comment on the failure of the defense to
produce evidence.” The court further stated, “This
missing witness inference usually may not be drawn
if the witness is ‘equally within the power of either
party to produce.’” Id. (quoting United States v. Pitts,
353 F.2d 870, 871 (D.C. Cir. 1990).

74a
Although originally a shield for an accused from
a prosecutor’s comments, the missing-evidence
instruction may also be used as a sword against the
Government. 5 In United States v. Roberts, 10 M.J.
308, 313 (C.M.A. 1981), our superior court stated
“Under normal circumstances, a possible inference
might be drawn from [a witness’s] unexplained
absence that [their] testimony would not support the
Government or that it would be favorable to the
accused.” The concurring opinion rejected this
The federal circuit courts of appeal provide additional examples
of when this might arise as well as additional instruction on
when such an instruction might be appropriate. See, e.g. United
States, v. Ramirez, 714 F.3d 1134, 1138 (9th Cir. 2013) (noting
that a missing witness instruction would be appropriate when:
“(1) ‘[t]he party seeking the instruction must show that the
witness is peculiarly within the power of the other party’ and (2)
‘under the circumstances, an inference of unfavorable testimony
[against the non-moving party] from an absent witness is a
natural and reasonable one’”); United States v. Myerson, 18 F.3d
153, 159 (2d Cir. 1994) (highlighting a distinction between a
defense counsel arguing missing evidence and the trial judge
providing a negative inference instruction and stating that
“[u]nder some circumstances, it may be proper for a trial court to
refuse to give a missing witness instruction to allow the
defendant to argue the inference in summation”); United States
v. Wright, 722 F.3d 1064 (7th Cir. 2013) (affirming a trial judge’s
declination to provide a missing witness instruction against the
government when a confidential informant did not testify at
trial); United States v. Walcott, 431 Fed. Appx. 860, 861 (11th
Cir. 2011) (affirming a trial judge’s refusal to provide a missing
witness instruction and decision to limit the defense counsel’s
closing argument on the inferences that could be drawn from the
absent testimony of a witness who had invoked his Fifth
Amendment rights); and United States v. Jimenez-Torres, 435
F.3d 3, 12 (1st Cir. 2006) (drawing a distinction between a
defense counsel’s closing argument that highlights the missing
proof to argue there was insufficient evidence and argument for
the jury to draw a negative inference against the government).
5

75a
position and stated, “No basis exists for an adverse
inference instruction from failure to call a witness
unless the party logically expected to call the witness
‘has it peculiarly within his power to produce’ the
witness.” Id. (Cook, Judge, concurring) (quoting
Graves, 150 U.S. at 121.) “Equal availability
‘precludes the inference.’” Id. (quoting United States v.
White, 38 C.M.R. 9, 12 (C.M.A. 1967).
We note there is a difference between trial
defense counsel arguing missing evidence as it applies
to the Government meeting its burden of proof and
arguing the members should make a negative
inference from evidence not properly before them as
the trier of fact. Had the Defense requested the
military judge provide a negative inference
instruction prior to argument, she would have been
well within her discretion to decline to do so. None of
the missing evidence highlighted by the trial defense
counsel in closing argument was peculiarly within the
Government’s control—a necessary prerequisite for
such an instruction. However, the question remains
whether her sua sponte instruction limiting the trial
defense counsel’s argument on this point was an abuse
of discretion. We hold that it was not.
A military judge has a wide range of options
when controlling the presentation of evidence in her
courtroom. See Mil. R. Evid. 611(a) (requiring the
military judge to exercise reasonable control over the
mode and order of interrogating witnesses). This
includes limiting the closing arguments of counsel.
See Rule for Courts-Martial (R.C.M.) 919, Discussion

76a
(“The military judge may exercise reasonable control
over argument.”) (citing R.C.M. 801(a)(3)). Perhaps
better practice would have been to address the issue
outside of the presence of the members; however, trial
defense counsel argued the matter directly to the
members. Thus, it was within the military judge’s
discretion to sua sponte instruct the members
concerning what she believed to be improper
argument.
Moreover, we find that the substance of the
instruction was a correct statement of the law. Here,
some of the referenced evidence was likely
inadmissible under the military rules of evidence. The
military judge did not abuse her discretion in sua
sponte instructing the members as to what evidence
they could properly consider. While the instruction
precluded the members from presuming the missing
evidence must have been detrimental to the
Government’s case (a mandatory inference), it did not
preclude the members from reaching that conclusion
if they determined that the evidence otherwise
supported it (a permissive inference). In addition, the
instruction did not shift the burden of proof or prevent
the members for considering the missing evidence as
it applied to the Government meeting its burden of
proof. After providing the limits of what inferences the
members could draw from the evidence that had not
been presented, the military judge stated that it was
“the Government’s burden, and the Government’s
alone, to present [the members] with evidence—legal
and competent evidence, that proves each element of
each offense beyond a reasonable doubt.” We find the

77a
military judge did not abuse her discretion in
providing this limiting instruction to the members.
Sentence Reassessment
Having dismissed the sexual assault
specification, we now must decide whether we can
accurately reassess Appellant’s sentence based solely
upon the findings on the affirmed conduct unbecoming
specifications, or instead if we must return this case
for a rehearing.
This court has “broad discretion” when
reassessing sentences. United States v. Winckelmann,
73 M.J. 11, 12 (C.A.A.F. 2013). Our superior court has
repeatedly held that if we “can determine to [our]
satisfaction that, absent any error, the sentence
adjudged would have been of at least a certain
severity, then a sentence of that severity or less will
be free of the prejudicial effects of error.” United
States v. Sales, 22 M.J. 305, 308 (C.M.A. 1986). In
determining whether to reassess a sentence or order a
rehearing, we consider the totality of the
circumstances with the following as illustrative
factors: (1) dramatic changes in the penalty landscape
and exposure, (2) the forum, (3) whether the
remaining offenses capture the gravamen of the
criminal conduct, (4) whether significant or
aggravating circumstances remain admissible and
relevant, and (5) whether the remaining offenses are
the type with which we as appellate judges have the
experience and familiarity to reliably determine what

78a
sentence would have been imposed
Winckelmann, 73 M.J. at 15–16.

at

trial.

Examining the entire case and applying the
considerations set out in Winckelmann, we are unable
to determine to our satisfaction that Appellant’s
sentence would have been at least a certain severity
without the error. While this court has extensive
experience in dealing with conduct unbecoming cases
and, as such, are cognizant of the types of punishment
and levels of sentence imposed for offenses similar to
those alleged against Appellant, the remaining
circumstances surrounding this case point towards a
rehearing.
The dismissal of the Article 120 specification
reduces the penalty landscape and exposure by 30
years, leaving a maximum possible confinement of
five years. This factor alone would not automatically
require a sentence rehearing. See Winckelmann, 73
M.J. at 13, 16 (holding that it was not an abuse of
discretion to reassess the sentence where the
maximum amount of confinement decreased from 115
years to 51 years). However, the reduction in
confinement is far from insignificant.
More critical than the reduction in punishment
exposure, however, is the fact Appellant no longer
stands convicted of sexual assault. Trial counsel’s
sentencing argument highlighted the impact of the
sexual assault on SrA HB who testified about the
personal effect of the offense on her and her family.

79a
Trial counsel discussed the conduct unbecoming
convictions and their impact on the victims involved;
however, the focal point of the argument to support
asking members for a significant sentence was how
the sexual assault effected SrA HB.
As both the penalty landscape and the available
aggravation evidence is significantly reduced after the
dismissal of the sexual assault charge, we believe the
reassessment of the remaining sentencing evidence in
this particular case is better suited for court members
and, therefore, remand the case for a sentence
rehearing.
Conclusion
The findings of guilt to Charge I and its sole
Specification are SET ASIDE and DISMISSED
WITH PREJUDICE. The remaining findings are
correct in law and fact, and are AFFIRMED. Article
66(c), UCMJ. The sentence is SET ASIDE. The record
of trial is returned to The Judge Advocate General for
remand to the convening authority who may order a
sentence rehearing on the affirmed charges and
specifications. Article 66(e), UCMJ. Thereafter,
Article 66(b), UCMJ, will apply.
FOR THE COURT
/s/ Kurt J. Brubaker
KURT J. BRUBAKER
Clerk of Court

80a
APPENDIX D
United States Court of Appeals
for the Armed Forces
Washington, D.C.
United States,
Appellee
v.
Paul D.
Voorhees,

USCA Dkt. No. 18-0372/AF
Crim.App. No. 38836
ORDER

Appellant

On consideration of Appellant's petition for
reconsideration of the Court’s decision, United States
v. Voorhees, 79 M.J. 5 (C.A.A.F. 2019), it is, by the
Court, this 8th day of August, 2019,
ORDERED:
That the petition for reconsideration is hereby
denied.
For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Air Force
Appellate Defense Counsel (Zimmermann)
Appellate Government Counsel (Delmare)

81a
APPENDIX E
_________________________________________________
GLOSSARY
AFCCA

-Air Force Court of Criminal
Appeals.

CAAF

-U.S. Court of Appeals for the
Armed Forces.

CA

-Convening Authority - the
commander authorized to convene
(create) a court-martial. In the
USAF, for “General” courtsmartial, this is usually a 2 or 3 star
General.

GCM

-General Court-Martial. May try
all crimes under the UCMJ, and
impose
any
punishment
authorized by law, including
death.

MCM (date)

-Manual for Courts-Martial (year).
Executive Order promulgated per
10 U.S.C. § 836(a).

Members

-Panel
Members,
roughly
equivalent to jurors, but are of
equal or higher rank than the
accused.

Military Judge -Military judge advocate assigned
to a Service’s judiciary (trial or
appellate) billet as a judge.
Panel

-Composed of Members.

Trial Counsel

-Military prosecutor.

UCMJ

-Uniform Code of Military Justice,
10 U.S.C. § 801 et seq.

